Report No. D-2009-043          January 21, 2009




FY 2007 DoD Purchases Made Through the U.S.
       Department of Veterans Affairs
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http:/www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AHLTA                 Armed Forces Health Longitudinal Technology Application
COR                   Contracting Officer’s Representative
DGPA                  DSCP Guiding Principles for Acquisition
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
D&F                   Determination and Finding
FAR                   Federal Acquisition Regulation
FSS                   Federal Supply Schedule
GAO                   Government Accountability Office
IG                    Inspector General
ITAC                  Information Technology Acquisition Center
J&A                   Justification and Approval
MIPR                  Military Interdepartmental Purchase Request
MOA                   Memorandum of Agreement
OIG                   Office of Inspector General
QASP                  Quality Assurance Surveillance Plan
U.S.C.                United States Code
VA                    U.S. Department of Veterans Affairs
VASS                  Veterans Affairs Special Services
 -

roo,
.~                                   INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON , VIRGINIA 22202-4704
                                                                                  January 21 , 2009

 MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                   TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/DoD CHIEF
                   FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
               COMMANDER, DEFENSE SUPPLY CENTER PHILADELPHIA


 SUBJECT: FY 2007 DoD Purchases M~de Through the U.S. Department of Veterans Affairs
          (Report No. D-2009-043)

 We are providing this draft report for review and comment. We considered comments from the
 Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics; the Office of
 the Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer; and the Commander,
 Defense Supply Center Philadelphia. The Assistant Secretary of Defense (Health Affairs) also
 provided unsolicited comments. All comments were considered in preparing the final audit report.

 DoD Directive 7650.3 requires that all recommendations be resolved promptly. As a result of
 client comments, we revised and renumbered Recommendation B. We request that the Under
 Secretary of Defense for Acquisition, Technology, and Logistics provide additional comments on
 Recommendation B.l. The Office of the Under Secretary of Defense (Comptroller)/DoD Chief
 Financial Officer and the Assistant Secretary of Defense (Health Affairs) comments were
 responsive. The Commander, Defense Supply Center Philadelphia comments were partially
 responsive. Therefore, we request additional comments on Recommendation B.3. by
 February 20, 2009.

 Please provide comments that conform to the requirements of DoD Directive 7650 .3. Ifpossible,
 send your comments in electronic format (Adobe Acrobat file only) to AudACM@dodig.mil.
 Copies of your comments must have the actual signature of the authorizing official for your
 organization. We are unable to accept the / Signed / symbol in place of the actual signature. If
 you arrange to send classified comments,electronically, you must send them over the SECRET
 Internet Protocol Router Network (SIPRNET).

 We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
 604-9200 (DSN 664-9200). If you desire, we will provide a formal briefing on the results.




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management


 cc: Inspector General, U.S. Department of Veterans Affairs
Report No. D-2009-043 (Project No. D2007-D000CF-0263.000)                     January 21, 2009


              Results in Brief: FY 2007 DoD Purchases
              Made Through the U.S. Department of
              Veterans Affairs
                                                       not properly solicit, award, or perform
What We Did                                            oversight.
As required by Public Law 109-364, “John
Warner National Defense Authorization Act for          The internal controls were not adequate. We
Fiscal Year 2007,” we did the second review            identified weaknesses in acquisition strategies.
regarding DoD contracting through the
U.S. Department of Veterans Affairs (VA). The          What We Recommend
main objective was to determine whether DoD
                                                          The Under Secretary of Defense for
and VA improved their interagency purchasing
                                                           Acquisition, Technology, and Logistics
practices since our last audit.
                                                           should ensure DoD organizations issue local
                                                           guidance that reflects current requirements.
What We Found                                             The Under Secretary of Defense
The VA contracting officials and DoD manage-               (Comptroller)/DoD Chief Financial Officer
ment officials showed some improvement, but                should provide the status of the DoD
still did not consistently comply with                     Components preliminary reviews for the
procurement regulations when making assisted               potential Antideficiency Act violations
acquisitions through VA. Specifically, this                identified.
review disclosed problems with acquisition                The Commander, Defense Supply Center
planning, sole-source justifications, price                Philadelphia should require contract officers
reasonableness determinations, contract                    to follow acquisition regulations.
administration, and the bona fide needs rule.             Recommendations to address the contracting
                                                           problems were made in other audit reports
As a result, DoD organizations making pur-                 noting the same problems. Also, the Office
chases through VA had no assurance that the                of Management and Budget issued detailed
purchases were based on best value or that VA              guidance on improving the interagency
used effective and efficient acquisition pro-              acquisition process on June 6, 2008.
cedures, and DoD continued to incur potential              Accordingly, we did not repeat these
Antideficiency Act violations. Additionally, the           recommendations in this report.
VA Office of Acquisition and Logistics decided
to terminate its assisted acquisition support to       Client Comments
the Air Force. This effectively ends DoD use of
VA for assisted acquisitions as the VA Office of       The Under Secretary of Defense for
Acquisition and Logistics worked on 94 percent         Acquisition, Technology, and Logistics and the
of purchases made by DoD organizations. We             Under Secretary of Defense (Comptroller)/DoD
believe that DoD should continue to use VA to          Chief Financial Officer generally agreed with
purchase goods and services, when in DoD’s             the recommendations; the Director of the
best interest.                                         Defense Logistics Agency Accountability
                                                       Office, responding for the Commander, Defense
Further, Defense Supply Center Philadelphia            Supply Center Philadelphia, partially agreed.
contracting officers, when making direct               Please see the table on the back of this page for
acquisitions from Federal Supply Schedules, did        recommendations needing additional comment.


                                                   i
Report No. D-2009-043 (Project No. D2007-D000CF-0263.000)        January 21, 2009



Recommendations Table
Client                           Recommendations       No Additional
                                 Requiring Comment     Comments Required
Under Secretary of Defense for
Acquisition, Technology, and     B.1.                  A.1.
Logistics

Under Secretary of Defense
(Comptroller)/DoD Chief                                A.2., B.2.a., and B.2.b.
Financial Officer

Commander, Defense Supply
Center Philadelphia              B.3.

Please provide comments by February 20, 2009.
Table of Contents

Results in Brief                                                                    i

Introduction                                                                        1

       Objectives                                                                   1
       Background                                                                   1
       Review of Internal Controls                                                  3

Finding A. DoD Use of Veterans Affairs for Assisted Acquisitions                    5

       Recommendations, Client Comments, and Our Response                          19

Finding B. DoD Use of Veterans Affairs for Direct Acquisitions                     21

       Recommendations, Client Comments, and Our Response                          33

Appendices

       A. Scope and Methodology                                                    39
       B. Prior Coverage                                                           42
       C. Assisted Acquisitions Issues                                             45
       D. Potential Antideficiency Act Violations That Occurred in FY 2007 Using
              Assisted Acquisitions                                                49
       E. Direct Acquisitions Issues                                               51
       F. Potential Antideficiency Act Violations That Occurred in FY 2007 Using
              Direct Acquisitions                                                  53

Client Comments

       Under Secretary of Defense for Acquisition, Technology, and Logistics       57
       Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer        58
       Assistant Secretary of Defense for Health Affairs                           61
       Defense Logistics Agency                                                    62
Introduction
Objectives
Our overall audit objective was to determine whether DoD and the U.S. Department of
Veterans Affairs (VA) improved their interagency purchasing practices since our last
audit. Specifically, we examined the policies, procedures, and internal controls to
determine whether there was a legitimate need for DoD to use the VA, whether DoD
clearly defined its requirements, whether DoD properly used and tracked funds, and
whether VA complied with Defense procurement requirements. See Appendix A for a
discussion of the scope and methodology. See Appendix B for prior coverage related to
the objectives.

Background
This audit was performed as required by section 817, Public Law 109-364, “John Warner
National Defense Authorization Act for Fiscal Year 2007,” October 17, 2006.
Section 817 states:

       (a) INSPECTOR GENERAL REVIEWS AND DETERMINATIONS.—
               (1) IN GENERAL.—For each covered non-defense agency, the Inspector
       General of the Department of Defense and the Inspector General of such
       non-defense agency shall, not later than March 15, 2007, jointly—
               (A) review—
                         (i) the procurement policies, procedures, and internal controls of
               such non-defense agency that are applicable to the procurement of
               property and services on behalf of the Department by such non-defense
               agency; and
                         (ii) the administration of those policies, procedures, and internal
               controls; and
               (B) determine in writing whether—
                         (i) such non-defense agency is compliant with defense
               procurement requirements;
                         (ii) such non-defense agency is not compliant with defense
               procurement requirements, but has a program or initiative to significantly
               improve compliance with defense procurement requirements;
                         (iii) neither of the conclusions stated in clauses (i) and (ii) is
               correct in the case of such non-defense agency; or
                         (iv) such non-defense agency is not compliant with defense
               procurement requirements to such an extent that the interests of the
               Department of Defense are at risk in procurements conducted by such
               non-defense agency.
               (2) ACTIONS FOLLOWING CERTAIN DETERMINATIONS.—If the
       Inspectors General determine under paragraph (1) that a conclusion stated in
       clause (ii), (iii), or (iv) of subparagraph (B) of that paragraph is correct in the case
       of a covered non-defense agency, such Inspectors General shall, not later than
       June 15, 2008, jointly—
               (A) conduct a second review, as described in subparagraph (A) of that


                                              1
       paragraph, regarding such non-defense agency’s procurement of property or
       services on behalf of the Department of Defense in fiscal year 2007; and
              (B) determine in writing whether such non-defense agency is or is not
       compliant with defense procurement requirements.

To comply with the FY 2007 National Defense Authorization Act, the Offices of the
Inspectors General (OIG) DoD and VA conducted an interagency audit of DoD purchases
made through the VA. The law required a second review if our initial review disclosed
problems. Our initial review was performed last year and disclosed problems that are
summarized in DoD Inspector General (IG) Report No. D-2008-036, “FY 2006 DoD
Purchases Made Through the U.S. Department of Veterans Affairs,” December 20, 2007.
This report addresses problems noted during our second review. We believe that DoD
should continue to use VA to purchase goods and services, when in DoD’s best interest.
The DoD OIG transmitted a summary of the review to Congress on June 13, 2008. The
VA OIG transmitted a separate summary of its review to Congress.

The VA mission is to provide United States veterans and their families with medical care,
benefits, and social support. VA is divided into three subdivisions: the Veterans Health
Administration, the Veterans Benefits Administration, and the National Cemetery
Administration. Currently there are 153 VA medical centers and more than
263,000 personnel. About 5.5 million people received benefits in VA health care
facilities in FY 2007. VA is the second largest Federal department. According to the VA
fact sheet, the FY 2007 spending was projected to be more than $80.0 billion. The VA
was established on March 15, 1989, succeeding the former Veterans Administration that
was established July 21, 1930.

The VA organization comprises several contracting organizations. The Austin
Acquisition Service, the Denver Acquisition and Logistics Center, the Information
Technology Acquisition Center (ITAC), the Joint Venture Acquisition Center, and the
Veterans Affairs Special Services (VASS) all make purchases on behalf of DoD. The
National Acquisition Center solicits, awards, and administers the VA Federal Supply
Schedule (FSS).

In FY 2007, DoD organizations provided funds to VA contracting activities to award
876 purchases of goods and services valued at $207.5 million, an approximate 50 percent
decrease from FY 2006, with the Air Force being the largest DoD user of the VA with
760 purchases valued at approximately $174 million. We visited 5 DoD and 3 VA
organizations, and reviewed 61 military interdepartmental purchase requests (MIPR)
totaling $85.0 million for 40 purchases. In addition, during FY 2007 the Defense Supply
Center Philadelphia (DSCP) awarded 1,277 direct purchases valued at approximately
$19.0 million using the FSS contracts. Of these purchases, DSCP personnel stated that
99 percent were on VA FSS contracts. We reviewed 23 of the direct purchases worth
more than $10.0 million made by DSCP using VA contracts.




                                           2
Recommendations Implemented
VA is implementing actions to correct problems noted in DoD IG Report No. D-2008-
036, “FY 2006 DoD Purchases Made Through the U.S. Department of Veterans Affairs,”
December 20, 2007; and VA IG Report No. 06-03540-24, “Audit of VA Purchases Made
on Behalf of the Department of Defense,” November 19, 2007. VA is improving
compliance with the Federal Acquisition Regulation (FAR) and DoD procurement
regulations. VA stopped advance payments, changed funding procedures, and is
providing training to its personnel on DoD procurements. Further, VA contracting
officers have improved price reasonableness determinations, sole-source justifications,
and competition.

Interagency Acquisitions Guidance
On June 6, 2008, the administrator of the Office of Management and Budget, Executive
Office of the President issued a memorandum on “Improving the Management and Use
of Interagency Acquisitions.” The memorandum provides guidance to help agencies
make sound decisions when supporting the use of assisted acquisitions and on direct
acquisitions. The guidance also provides a checklist of roles and responsibilities for the
requesting and servicing agency.


Review of Internal Controls
We determined that a material internal control weakness existed as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. DoD organizations were required to ensure the acquisition strategy was in the best
interest of the Government. The sites we visited encountered problems while
implementing and executing policy. Furthermore, contracting, financial, and accounting
officials did not comply with regulations and statutes. DoD organizations should
incorporate the regulations and statutes associated with contracting and funding.
Contracting, financial, and accounting officials should have the necessary training and
knowledge to properly execute the orders. Implementing Recommendation A.1. will
improve interagency acquisitions. We will provide a copy of this report to the senior
official responsible for internal controls in the Office of the Under Secretary of Defense
for Acquisition, Technology, and Logistics and the Office of the Under Secretary of
Defense (Comptroller)/DoD Chief Financial Officer.




                                             3
Finding A. DoD Use of Veterans Affairs for
Assisted Acquisitions
For FY 2007 assisted acquisitions, VA contracting officials and DoD management
officials continued to work on improving contracting for interagency agreements;
however, those officials did not always comply with the FAR and DoD procurement
regulations and guidance. Of the 22 purchases reviewed at DoD organizations, all were
either hastily planned, inappropriately administered, or improperly funded, and there was
no collection and recording of contractor past performance data by DoD organizations on
the VA contracts. Specifically,

           DoD organizations did not document that the non-DoD contracts were in the
            best interest of DoD;

           the VA and DoD organizations were deficient in contract administration,
            including surveillance of contractor performance, assignment of contracting
            officer’s representatives (COR), and preparation of quality assurance
            surveillance plans (QASP); and

           the VA and DoD requesting activity used Government funds that did not meet
            the bona fide needs rule.

On 16 of 36 purchases1 reviewed at the VA contracting activities, the VA contracting
officials did not properly award DoD purchases. Specifically,

           on 15 of the 36 purchases, the VA contracting officials did not have adequate
            support for price reasonableness determination; and

           on 5 of 11 sole-source purchases, the VA contracting officials did not provide
            adequate justification for sole-source procurements.

This occurred because of a lack of oversight and coordination between VA and DoD.
Officials were unclear of their roles and responsibilities and also the applicable guidance
for interagency agreements. As a result, DoD organizations making purchases through
the VA had no assurance that the purchases were based on best value or that the VA used
effective and efficient acquisition procedures, and DoD continued to incur potential
Antideficiency Act violations.




1
 Eighteen of 36 purchases were reviewed at DoD and VA organizations and 18 purchases were reviewed
solely at VA organizations. See the Appendix A, “Assisted Acquisitions Reviewed,” table and
Appendix C, “Assisted Acquisition Issues,” for detailed information on the purchases.


                                                 5
Background
DoD Use of the VA
The Military Departments generally use the services of the VA contracting organizations
to award contracts under section 8111, title 38, United States Code (38 U.S.C. 8111),
“Sharing of Department of Veterans Affairs and Department of Defense Health Care
Resources” (VA-DoD Health Care Resources Sharing Act) statutory authority. Further,
10 U.S.C. 1104 states that DoD shall share health care resources with VA in accordance
with 38 U.S.C. 8111. The VA and Office of the Air Force Surgeon General established a
March 31, 2005, memorandum of agreement (MOA) that states the Air Force will use
VA as its primary contracting support for health care-related acquisitions. DoD uses
MIPRs to transfer funds to the VA when using assisted acquisition services.

VA-DoD Health Care Resources Sharing Act
Congress encourages VA and DoD to share resources through the VA-DoD Health Care
Resources Sharing Act. This act states:

              The Secretary of Veterans Affairs and the Secretary of Defense shall
              enter into agreements and contracts for the mutually beneficial
              coordination, use, or exchange of use of the health care resources of the
              Department of Veterans Affairs and the Department of Defense with
              the goal of improving the access to, and quality and cost effectiveness
              of, the health care provided by the Veterans Health Administration and
              the Military Health System to the beneficiaries of both Departments.

Memorandum of Agreement
The Deputy Surgeon General of the Air Force and the VA Acting Deputy Assistant
Secretary, Office of Acquisition and Materiel Management signed an MOA, effective
March 31, 2005, for Air Force contract support from the VA. The MOA was entered into
under the authority of 38 U.S.C. 8111 and 10 U.S.C. 1104. The MOA superseded the
Service Legal Agreement between the Air Force Medical Logistics Office and the
Department of Veterans Affairs National Acquisition Center, dated July 7, 1995. The
VA-Office of the Air Force Surgeon General MOA states:

              This MOA establishes a medical contracting service network for
              acquisition and procurement activities to facilitate the provision of
              Air Force Medical Service (AFMS) procurement requirements,
              increase efficiency of operations, and reduce cost of operations in
              accordance with the VA/DOD Joint Strategic Plan (April 2003). The
              AFMS will be the customer of the services provided under this
              agreement and will use this service network on a voluntary basis.

On May 21, 2008, the VA Deputy Assistant Secretary for Acquisition and Logistics
terminated support to Air Force Medical Service effective May 21, 2009. This
announcement is in accordance with MOA dated March 31, 2005, Section VIII,
“Termination.” The VA memorandum states:




                                                 6
               The purpose of this letter is to inform you that the Department of
               Veterans Affairs (VA) will exercise its right to terminate support under
               the terms of the Memorandum of Agreement (MOA) with the Office of
               the Air Force Surgeon General executed in March 2005.

Therefore, the VA Office of Acquisition and Logistics will no longer provide assisted
acquisition support to the Air Force. This decision does not affect purchases made by
ITAC under the Government Management Reform Act.

DoD MIPRs to VA
DoD uses the MIPR (DoD Form 448) to transfer funds within Military Departments and
to other Federal agencies’ servicing organizations. Most DoD MIPRs sent to VA are
authorized under the VA-DoD Health Care Resources Sharing Act. VA policy limits
interagency contracting authority to goods or services normally obtained by VA in the
course of carrying out its mission. The ITAC uses the Government Management Reform
Act of 1994 to procure information technology-related goods and services. Purchases
made under these two statutory authorities are categorized as non-Economy Act orders.
Accordingly, the requirements of DoD Financial Management Regulation, volume 11A,
chapter 3, “Economy Act Orders,” do not apply.

Criteria
On October 29, 2004, the Principal Deputy Under Secretary of Defense (Comptroller)
and Acting Under Secretary of Defense for Acquisition, Technology, and Logistics
issued a memorandum on “Proper Use of Non-DoD Contracts” (DoD October 29, 2004,
Memorandum). The memorandum directs Military Departments and Defense agencies to
establish procedures for reviewing and approving the use of non-DoD contract vehicles
when procuring supplies and services on or after January 1, 2005, for amounts exceeding
the simplified acquisition threshold. The procedures for assisted acquisitions must
include evaluating whether using a non-DoD contract is in the best interest of DoD;
determining that services and supplies are within the scope of the contract used;
reviewing funding to ensure it is in compliance with appropriation limitations; providing
unique terms, conditions, and requirements to the assisting agency for incorporation into
the order or contract, thus ensuring the contract is in compliance with DoD-unique
requirements; and collecting data on the use of assisted acquisitions for analysis.

MIPR Guidance
Section 1501, title 31, United States Code, “Documentary Evidence Requirement for
Government Obligations,” requires a binding, written agreement between two agencies
that will report the specific goods to be delivered, real property to be bought or leased, or
work or services to be provided. Defense Federal Acquisition Regulation Supplement
253.208-1, “Military Interdepartmental Purchase Requests,” requires reporting a realistic
time of delivery or performance on each MIPR.

Recently Issued Guidance
On October 16, 2006, The Acting Deputy DoD Chief Financial Officer, Office of the
Under Secretary of Defense (Comptroller), issued a memorandum, “Non-Economy Act


                                                  7
Orders” (DoD October 16, 2006, Memorandum). The memorandum prescribes policy
and procedures applicable to DoD procurement of goods and services from non-DoD
agencies under statutory authority other than the Economy Act. For non-economy act
orders over the simplified Acquisition Threshold, the memorandum directs Military
Departments to comply with FAR Part 7, and DoD Components’ procedures for the DoD
October 29, 2004, Memorandum. Furthermore, all non-Economy Act orders exceeding
$500,000 must be reviewed by a DoD-warranted contracting officer prior to sending the
orders to the funds certifier or issuing MIPRs to the non-DoD activity. The
memorandum states non-Economy Act orders for work and services outside of DoD
should be executed through the use of MIPRs. If an alternative execution document is
used, it must provide information consistent with the MIPR. Non-Economy Act orders
must include a detailed description, specific performance or delivery requirements,
proper fund citation, payment terms and conditions, specific non-Economy Act statutory
authority, and the DoD Activity Address Code. Finally, the memorandum directs the
requesting official to establish QASPs for non-Economy Act orders exceeding the
simplified acquisition threshold. The requirement facilitates the oversight of goods and
services for the performing agency. The plans should include contract administration
oversight in accordance with the surveillance plan, procedures for receipt and review of
receiving reports and invoices from the performing agency, reconciliation of receiving
reports and invoices, and requirements for documenting acceptance of the goods received
or services performed. In February 2008, the Under Secretary of Defense (Comptroller)/
DoD Chief Financial Officer updated the DoD Financial Management Regulation by
adding volume 11A, chapter 18, “Non-Economy Act Orders.” The information updated
in the Financial Management Regulation was information previously covered by the
Comptroller memorandums.

Acquisition Planning for Use of VA
We visited five DoD organizations that sent funds to VA using MIPRs for the purchase
of goods and services. The DoD organizations did not always:

          perform acquisition planning to document that the VA was the best source for
           procurement of goods and services;
          enter into interagency agreements with the VA that were specific, definite,
           and certain; or
          properly complete the MIPRs used to fund their purchases.

Acquisition Planning
On 22 of 22 purchases reviewed, DoD organizations had inadequate acquisition planning.
FAR Part 7, “Acquisition Planning,” details the Federal requirements for acquisition
planning. FAR 7.102 states that agencies must perform acquisition planning for all
acquisitions: “This planning shall integrate the efforts of all personnel responsible for
significant aspects of the acquisition. The purpose of this planning is to ensure that the
Government meets its needs in the most effective, economical, and timely manner.”
During initial acquisition planning, DoD organizations should determine the best way to
purchase goods or services and when applicable have this decision reviewed by a
warranted DoD contracting officer as also required by the DoD October 16, 2006,


                                            8
Memorandum. FAR 7.105 requires organizations to consider acquisition alternatives and
prospective sources of supplies and services that will meet their need. FAR Part 10,
“Market Research,” requires that agencies use the results of market research to determine
the sources capable of satisfying the agency’s requirements.

DoD organizations did not follow FAR or DoD guidance when using interagency
contracting. The Air Force Medical Operations Agency, Kelly Air Force Base, prepared
a boilerplate best interest determination for the purchase of 840 ventilators and
accessories. The boilerplate determination states:

               Use of a non-DoD contract is in the best interest of the Air Force
               considering the factors of satisfying customer requirements, cost
               effectiveness and price, delivery schedule, non-availability of a suitable
               contract within DOD, contract administration, small business
               opportunities and any other factors as applicable.

Twenty of 22 purchases reviewed contained the same statement, as compared to 35 of 49
purchases last year. The boilerplate statement does not explain the supporting rationale
on why the use of the non-DoD contract is in the best interest of the Air Force, as
required by the DoD October 29, 2004, Memorandum. DoD organizations must explain
why the use of non-DoD contract vehicles is in the best interest of DoD rather than sign a
previously prepared boilerplate statement.

Acquisition Guidance
The Air Force has issued contradictory guidance on interagency acquisitions. The
October 16, 2006, Memorandum requires all non-Economy Act orders greater than
$500,000 to be reviewed by a DoD-warranted contracting officer prior to sending the
order to the funds certifier or issuing the MIPR to the non-DoD activity. However,
Air Force Federal Acquisition Regulation Supplement 5317.78, “Proper Use of
Interagency Acquisitions (Non-DoD Contracts),” directs the requiring activity to only
require the signature of the program/project manager for assisted acquisitions of supplies.
The Air Force Federal Acquisition Regulation does not require an Air Force contracting
officer signature for assisted acquisitions of supplies or services but the MIPR must be
coordinated with the local base contracting office. To prevent inconsistencies between
DoD organizations, the Under Secretary of Defense for Acquisition, Technology, and
Logistics should re-emphasize the need for contracting officers to review DoD purchases
being assisted by a non-DoD activity. Also, the Under Secretary should require
consistency on DoD policy.

Interagency Agreements
On 3 of 22 purchases reviewed, as compared to 33 of 49 purchase reviewed last year,
DoD officials did not have an adequate interagency agreement with the VA outlining the
terms and conditions of the purchase. While preparing interagency agreements, DoD
officials did not always comply with DoD Instruction 4000.19 and Financial
Management Regulation, volume 11A, chapter 1, requirements. These standards require
the interagency agreement to have the following: (1) the authority, (2) description of
material or service required, (3) financing source or fund citation, (4) delivery


                                                   9
requirements, and (5) duration of agreement. The DoD March 24, 2005, memorandum,
“Proper Use of Interagency Agreements for Non-Department of Defense Contracts Under
Authorities Other Than the Economy Act,” (DoD March 24, 2005, Memorandum) in
conjunction with the DoD October 29, 2004, Memorandum, mandates that supplies and
services acquired by placing an order under a non-DoD contract will be consistent with
DoD statutory and regulatory requirements applicable to the acquisition and requirements
for use of DoD-appropriated funds.

MIPR Preparation
Fifty of 61 MIPRs reviewed, as compared to 75 of 124 MIPRs last year, did not contain
the required information necessary for interagency transactions. DoD organizations
issued MIPRs that either lacked a detailed description of the goods or services to be
acquired, failed to specify the delivery requirements for goods, or omitted the funding
statement required by the Under Secretary of Defense (Comptroller)/Chief Financial
Officer March 27, 2006, memorandum, “Proper Use of Interagency Agreements with
Non-Department of Defense Entities Under Authorities Other Than the Economy Act”
(DoD March 27, 2006, Memorandum). Most of the omitted information related to
statements that should have been included on the MIPR. For example, 40 of 61 MIPRs
reviewed, valued at $72 million, did not include the funding statement required by that
memorandum. For severable service purchases made using Operations and Maintenance
funds, the MIPR should state:

               These funds are available for services for a period not to exceed one
               year from the date of obligation and acceptance of this order. All un-
               obligated funds shall be returned to the ordering activity no later than
               one year after the acceptance of the order or upon completion of the
               order, which ever is earlier.

In the case of goods, the memorandum requires that interagency funding documents
include the statement, “I certify that the goods acquired under this agreement are
legitimate, specific requirements representing a bona fide need of the fiscal year in which
these funds are obligated.”

When preparing a MIPR, DoD organizations should either list or include a reference to
an interagency agreement, statement of work, task order, modification, or other
contractual document that contains a specific description of goods and services being
procured. This should also include the expected periods of performance and the DoD
March 27, 2006, Memorandum required funding statement, to provide a sound basis for
the use of DoD funds.

Improper Use of Government Funds
The DoD October 16, 2006, Memorandum and DoD Financial Management Regulation,
volume 11A, chapter 18 issue clear guidance on purchasing goods and services. As per
the October 16th Memorandum, delivery of goods should be made during the period of
availability of the funds, unless delivery, production or manufacturing lead time, or
unforeseen delays occur. Commercial off-the-shelf goods readily available from other
sources should be procured and delivered in the period the funds are available. Severable


                                                 10
services may cross fiscal years, as long as the period of performance does not exceed
1 year and services must begin in the year the funds are available for use. Use of current
guidance will help ensure bona fide needs and Antideficiency Act violations do not
occur.

Bona Fide Need
Three of the seven purchases reviewed at ITAC and one of five purchases reviewed at the
Air Force Medical Operations Agency, Fort Detrick, Maryland, may have violated the
bona fide needs rule, 31 U.S.C. 1502 (a); these could result in Antideficiency Act
violations, 31 U.S.C 1341 (a) (1). Overall, 4 of 40 purchases reviewed, or 10 percent2,
had potential Antideficiency Act violations. DoD organizations used annual Operations
and Maintenance appropriations to fund purchases of severable services that met a bona
fide need of the following fiscal year instead of the year the funds were available. Also,
DoD organizations purchased commercial goods that were contracted for and received
after the availability of the funds. The delay in contracting and receiving the goods could
not be justified because of delivery, production or manufacturing lead time, unforeseen
delays, or stock replacement.

For example, the TRICARE Management Activity sent approximately $1.8 million to
ITAC on September 22, 2006, using FY 2006 Defense Health Program funds. VA
personnel accepted the funds on September 26, 2006. FY 2006 Defense Health Program
funds expired on September 30, 2006. VA officials contracted for systems engineering
and information assurance support, valued at just under $1.5 million using FSS GS-35F-
4987H, task order V200P-1747. The contract states the period of performance was
October 1, 2006, through November 15, 2006. The use of FY 2006 Defense Health
Program funds to satisfy the FY 2007 requirement for engineering services does not meet
the intent of the bona fide needs rule. The TRICARE Management Activity should
conduct a preliminary review to determine whether an Antideficiency Act violation
occurred.

Throughout the audit, we worked with the personnel at the Office of the Under Secretary
of Defense (Comptroller)/DoD Chief Financial Officer and provided them with
information on the potential Antideficiency Act violations identified. The office directed
the DoD Components to initiate preliminary reviews in accordance with DoD 7000.14-R,
“Financial Management Regulations.” See Appendix D for a list of potential
Antideficiency Act violations.

VA Contract Award Decisions
VA contracting officials are responsible for determining price reasonableness of
contractor-proposed pricing and for justifying sole-source awards when contracting for
DoD. Price reasonableness determinations and sole-source justifications, when
applicable, should be prepared by the contracting officials and contain sufficient detail
and documentation to support their determinations.


2
    Judgment sample percentage does not generalize to universe.


                                                     11
Price Reasonableness Determinations
VA contracting officials did not adequately document and support price reasonableness
decisions for 15 of 36 purchases, or 42 percent, reviewed at VA contracting offices. The
42 percent represents a slight improvement over the 58 percent in our previous audit.
Twelve of the 15 purchases were for services and 3 were for goods. Seven of the
purchases had price reasonableness determinations that were not sufficiently supported,
and eight did not have any price reasonableness determination documented in the contract
files.

For example, VASS awarded an option year for five full-time registered nurses for the
96th Medical Group, Eglin Air Force Base, Florida. FAR 8.405, “Ordering Procedures
for Federal Supply Schedules,” states that services requiring a statement of work require
the ordering activity to consider the level of effort and the mix of labor proposed to
perform a specific task being ordered and for determining that the total price is
reasonable. The contract specialist’s price reasonableness determination for the purchase
stated that price analysis was performed on the acquisition by a “comparison with
competitive published price lists, published market prices of commodities, similar
indexes, and discount or rebate arrangements.” The “boilerplate” justification included a
statement that the pricing was compared to Salary.com and to the Federal Supply Service
(FSS) Web site. The Salary.com hourly rate was averaged with the median FSS Web site
hourly rate, resulting in an average hourly rate.

The contract hourly rate was considered to be fair and reasonable based on a comparison
to this rate. However, there was no supporting documentation showing the FSS Web site
hourly rates and how the median hourly rate was determined. In addition, the use of
Salary.com and the methodology of averaging the Salary.com hourly rate with the FSS
Web site median hourly rate as a means to support fair and reasonable pricing are
questionable. The VA contracting officer also exercised an option year contract
containing an allergist physician for the 96th Medical Group using the same boilerplate
justification.

In another example, the Joint Venture Acquisition Center awarded an FSS order for
facilities maintenance sustainment support at Brooks City-Base, Texas. The VA
contracting officer’s price reasonableness determination was included in the Justification
and Approval (J&A) for Follow-on Requirement. The justification stated that a review of
other FSS contract pricing was not performed because the contractor’s pricing was
determined to be the same as the contractor’s previous phase and there was minimal
increase due to inflation and cost increase of material.

The justification lacked supporting documentation showing the comparison of current
pricing to the previous phase pricing, and that the previous pricing was adequately
determined fair and reasonable. FAR Subpart 15.4, “Contract Pricing,” states that the
contracting officer is responsible for obtaining sufficient information that is adequate for
determining price reasonableness or cost realism, evaluating the reasonableness of the
offered prices, and purchasing supplies and services from responsible sources at fair and
reasonable prices. FAR 15.406-3, “Documenting the Negotiation,” states that the


                                             12
contracting officer must document in the contract file the principal elements of the
negotiation agreement including documentation of fair and reasonable pricing.
Therefore, the contracting officer’s assertion that prices were fair and reasonable was not
sufficient, as it did not meet FAR requirements.

Sole-Source Awards
VA officials awarded 11 of 31 purchases reviewed at VA contracting activities on a sole-
source basis. Of the 11 sole-source purchases, the VA contracting officials did not
adequately justify the use of sole-source contracts for 5 purchases, or 45 percent, and
therefore did not comply with FAR requirements. This was, however, a slight
improvement over the 73 percent inadequate sole-source justifications noted in our
previous audit. Four of the five awards were FSS purchases covered by FAR
Subpart 8.4., “Federal Supply Schedules.” One award was a multiple-award task order
covered by FAR 16.505(b), “Orders Under Multiple Award Contracts.”

Two of the five sole-source justifications incorrectly cited FAR 6.302 exceptions to fair
opportunity instead of FAR 8.405-6 exceptions. FAR Subpart 6.3, “Other Than Full and
Open Competition,” provides sole-source restrictions for most contracts. FAR Part 6
exceptions to fair opportunity are not applicable to FSS orders. The three remaining sole-
source justifications failed to cite a specific FAR exception to fair opportunity. Contracts
that are not fully competed must provide specific statutory exceptions to fair opportunity
and adequate explanations why FAR exceptions are allowed. There must also be
sufficient supporting documentation to validate the assertions.

For example, the contracting officer at the Joint Venture Acquisition Center awarded an
FSS order for facilities maintenance sustainment support at Brooks City-Base, Texas.
The J&A for Follow-on Requirement stated that it is likely that award to any other source
would result in substantial duplication of costs and schedule delays to the Government.
The J&A also stated that the Government is not expected to recover these costs and
delays through competition. The justification cited 10 U.S.C. 2304(c)(1), only one
responsible source, as the statutory authority for the follow-on award, but failed to
provide the FAR exception to fair opportunity. FAR 8.405-6(b) does provide an
exception when the new work is a logical follow-on to an original FSS order provided
that the original order was placed in accordance with the applicable FSS ordering
procedures. The original order must not have been previously issued under sole-source
or limited-source procedures. Further, the justification did not provide sufficient detail
and supporting documentation to show that only one responsible source existed for
fulfilling this requirement, or that the new order was a follow-on to an original FSS order
that was not issued under sole-source or limited-source procedures.

In another example, ITAC contracting officials awarded an FSS contract for the Armed
Forces Health Longitudinal Technology Application (AHLTA) System Engineering and
Security Accreditation Support for the Clinical Information Technology Program Office.
The AHLTA system is the computer-based patient record system for DoD and is
designed to support the clinical process. The J&A Memorandum for Other than Full and
Open Competition cited FAR 8.405-6, “Limited Sources Justification and Approval,” but


                                            13
did not cite a specific exception to fair opportunity. The justification stated that the
contractor had functioned as the prime integrator for AHLTA and was intimately familiar
with AHLTA. The services being provided under the contract represent a follow-on to
the overall AHLTA maintenance effort. The justification also stated that the intent of the
task order was to leverage the contractor knowledge base in order to avoid incurring
additional costs by funding the learning curve of another vendor. In addition to not
providing a specific FAR exception to fair opportunity, the justification did not provide
sufficient detail and supporting documentation that would have supported any of the
FAR 8.405-6 exceptions to fair opportunity:

               (1) Only one source is capable of responding due to the unique or
               specialized nature of the work; (2) The new work is a logical follow-on
               to an original Federal Supply Schedule order provided that the original
               order was placed in accordance with the applicable Federal Supply
               Schedule ordering procedures. The original order must not have been
               previously issued under sole source or limited source procedures; (3)
               An urgent and compelling need exists, and following the ordering
               procedures would result in unacceptable delays.

ITAC contracting officials also issued a task order under the Global Information
Technology Support Services multiple-award program. The Single Source Task Order
Award Justification provided narrative support for the sole-source award, but failed to
provide a specific FAR exception to fair opportunity. Sole-source task orders issued
under multiple-award contracts must cite one of the FAR 16.505(b)(2) exceptions to fair
opportunity.

Contract Administration
DoD and VA officials did not fully delineate administrative roles and responsibilities for
contract administration. Although 39 of the 40 purchases reviewed at DoD and VA
organizations referenced the March 31, 2005, MOA between VA and the Air Force
Surgeon General that lists the roles and responsibilities for contract administration,
including monitoring of contractor performance, the MOA failed to address the collection
and recording of past performance information. Contract administration includes
functions conducted by Government personnel from the awarding of the contract through
contract termination, including the elements of surveillance and documentation of past
performance.

Delineation of Surveillance Roles and Responsibilities
Regarding surveillance of contractor performance, the MOA states that the contracting
officer will designate in writing a COR who will be responsible for monitoring contractor
performance. The MOA does not delineate the specific surveillance procedures required
to be performed during the contract performance. However, the DoD October 16, 2006,
Memorandum and DoD Financial Management Regulation, volume 11A, chapter 18
clarify DoD surveillance duties and procedures by requiring the requesting official to
establish QASPs for non-Economy Act orders in excess of the simplified acquisition
threshold. DoD organizations must implement the recently issued guidance that clarifies
roles and responsibilities for non-Economy Act orders.


                                                 14
DoD Contracting Officers’ Representatives
The VA contracting officers did not identify DoD personnel as CORs on 19 of
39 purchases3 reviewed, or 49 percent, as compared to 60 percent in our previous audit.
Also, three purchases had inadequate COR designation letters. For example, one COR
did not sign the letter acknowledging his designation even though he was performing
COR duties. Defense Federal Acquisition Regulation Supplement Subpart 201.6,
“Contracting Authority and Responsibilities,” requires that contracting officers designate
a properly trained COR in writing prior to contract performance to assist in technical
monitoring or administration of a contract. Also, the MOA between the Air Force and
VA states that for task and delivery orders placed through the VASS or other VA
contracting offices, the applicable VA contracting officer will appoint in writing a COR
at the Medical Treatment Facility or appropriate Air Force Medical Service organization
located at the place of performance for each action.

In addition to 19 of the 39 purchases3 without designated CORs, 3 contract files of the
20 purchases with designated CORs did not have training certificates to verify the CORs
were adequately trained. CORs should have the skills necessary to reasonably ensure the
contractor is using efficient and effective cost control methods. The MOA and Defense
Federal Acquisition Regulation Supplement 201.6 requires a COR be designated in
writing and properly trained to perform his or her duties. An adequately trained COR
should be aware of what his or her duties are and should recognize the importance of
providing Government contract surveillance. DoD officials should stress the importance
of adequate Government quality assurance on all its contracts and require CORs to
prepare QASPs and conduct and document adequate Government contract surveillance.

DoD Surveillance Plans
Twenty-three of 40 purchases reviewed did not include surveillance plans and
9 purchases had inadequate surveillance plans, as compared to 18 of 34 purchases in our
previous audit; 8 purchases had adequate surveillance plans that met FAR requirements.
FAR 46.103, “Contracting Office Responsibilities,” provides that contracting offices are
responsible for receiving a QASP from the requesting activity when contracting for
services. According to FAR Subpart 46.4, “Government Contract Quality Assurance,” a
QASP should be prepared in conjunction with preparation of the statement of work and
should specify all work requiring surveillance and the method of surveillance. FAR
Subpart 37.6, “Performance-Based Acquisition,” addresses QASP requirements for
performance-based contracts. It requires agencies to develop QASPs when acquiring
services that contain measurable inspection and acceptance criteria corresponding to the
performance standards contained in the statement of work.

Without adequate surveillance plans there was no assurance that work was actually
monitored or the methods used to perform surveillance were sufficient. For instance, the
Air Force Medical Operations Agency, Bolling Air Force Base, program officials did not
have an adequate QASP for the Administrative Support contract. The DoD COR was


3
    For 1 of the 40 purchases reviewed, we were unable to determine whether a COR had been designated.


                                                    15
unaware of a surveillance plan and explained there is not anything in particular done for
surveillance because she “sits next to the employee.” DoD personnel must document
their surveillance efforts and demonstrate that they adequately monitored contractors’
performance. Without such documentation, it would be difficult for the contracting
officer to protect Government interests and take actions to require performance
improvement or to terminate the contract for default.

The FAR requires Government inspections through the use of receiving reports or
commercial shipping documents. DoD receiving personnel should ensure that goods
conform to contract requirements. The DoD October 16, 2006, Memorandum and DoD
Financial Management Regulation, volume 11A, chapter 18 require the preparation of
surveillance plans for goods. The Air Force Medical Operations Agency, Fort Detrick,
Maryland, program officials could not demonstrate how DoD performed oversight for the
purchase of a sterilizing unit. The contract was awarded on September 24, 2007, with a
delivery date of October 31, 2007. On November 8, 2007, the VASS fiscal department
sent the vendor a letter stating they provided an improper invoice because it did not
include a proof of delivery. VASS contracting officials also requested by phone that the
customer provide the receiving report. As of April 30, 2008, the customer did not
provide a receiving report and the vendor did not provide a proof of delivery. As
required by the DoD October 16, 2006, Memorandum, the surveillance plans should
include the process for receipt and review of receiving reports and invoices from the
performing agency, reconciliation of receiving reports and invoices, and requirements for
documenting acceptance of the goods. DoD adherence to those procedures will increase
the likelihood that the Government receives the correct type and quantity of products.

Past Performance Requirements
The DoD and VA activities reviewed did not collect and record past performance
information for 24 of 30 assisted acquisition purchases4 reviewed. No past performance
information on the VA contracts had been entered into the DoD data collection system,
the Contractor Performance Assessment Reporting System, or into the Past Performance
Information Retrieval System, which collects and retains past performance information
on contractors for the entire Federal Government.

The November 27, 2007, Office of the Under Secretary of Defense, Director, Defense
Procurement and Acquisition Policy Memorandum on “Past Performance Information,”
states:

                 It is important that the acquisition workforce input contractor past
                 performance information into DoD’s data capture system, the
                 Contractor Performance Assessment Reporting System (CPARS),
                 whenever a procurement action meets the DoD dollar threshold. All
                 contracts that meet the thresholds stated in Attachment A should be
                 included in CPARS. There is an expectation of noticeable performance


4
 Ten of the 40 purchases reviewed at DoD and VA activities were below the dollar threshold required for
documenting past performance. We did not review past performance information for 6 of the remaining
30 purchases.


                                                   16
               improvements and greater efficiency and effectiveness of operations
               when past performance information is used effectively.

On January 18, 2008, the Director, Defense Procurement and Acquisition Policy issued a
memorandum on interagency acquisitions, stating that a previous memorandum issued by
his office on January 20, 2005, had emphasized that “teamwork and communication” are
critical to the success of interagency acquisition and that all parties to an interagency
acquisition must ensure that the duties and responsibilities of contract administration and
oversight are clearly assigned and correctly performed. In the later memorandum, the
director added that this is especially important in performing assessment of contractor
past performance (FAR 42.15). FAR Subpart 42.15, “Contractor Performance
Information,” states:

               Past performance information is relevant information, for future source
               selection purposes … It includes, for example, the contractor’s record
               of conforming to contract requirements and to standards of good
               workmanship; the contractor’s record of forecasting and controlling
               costs
               .          .         .        .         .         .         .
                 interim evaluations should be prepared as specified by the agencies to
               provide current information for source selection purposes, for contracts
               with a period of performance, including options, exceeding one year.

During the audit, we did not see any evidence that duties and responsibilities related to
the collection and recording of contractor’s past performance were clearly assigned and
performed. There was confusion and uncertainty as to whether DoD or VA was
responsible for the collection and recording of past performance and as a result, past
performance information was not collected and recorded in DoD data collection systems
or the Past Performance Information Retrieval System and used to access performance
for future contract awards.

For example, contractor past performance information was not collected and recorded for
facilities maintenance support at the 79th Medical Support Group, Andrews Air Force
Base, Maryland. The Joint Venture Acquisition Center contracting officer awarded the
task order that had a base year beginning January 1, 2007, and three 1-year options
valued at $4.5 million. The contractor was required to survey the facilities infrastructure
and identify all deficiencies with all equipment and systems they were responsible for
and at the same time handle routine and emergency work orders along with monthly
preventative maintenance requirements.

On August 15, 2007, the 79th Medical Support Group, Deputy Flight Commander issued
a justification for non-renewal of the contract, citing numerous deficiencies in the
contractor’s performance. The contractor’s on-site maintenance supervisor lacked the
skills necessary to effectively inspect and identify deficiencies and maintain the daily
workload, which caused delays in the completion of work orders and projects. The
contractor also was not able to maintain positive results where fire and safety were
concerned as violations of fire and safety codes existed. Poor contractor performance,
such as this, should be a factor in future source selection decisions involving this


                                                 17
contractor. However, the performance information was not collected and recorded and
therefore, not available for consideration in future source selections.

Conclusion
Overall, we found that VA contracting officials have made some improvement on their
compliance with the FAR and DoD procurement regulations when making purchases on
behalf of DoD; however, problems with sole-source justifications and price
reasonableness determinations still persist to a significant degree. We also found that
DoD continues to struggle in its use of interagency acquisitions at VA. VA and DoD
should continue working together to ensure that both comply with the FAR and Defense
Federal Acquisition Regulation Supplement.

On June 6, 2008, the Executive Office of the President, Office of Management and
Budget, Office of Federal Procurement Policy issued guidance on interagency
acquisitions that addresses the use and management of interagency acquisitions. The
guidance includes a comprehensive checklist of roles and responsibilities in assisted
acquisitions, designed to help requesting and servicing agencies define their respective
roles in the interagency acquisition. The checklist includes responsibilities of the
requesting and servicing agencies for acquisition planning, contract execution, and
contract administration. If followed, many of the problems noted during this audit can be
avoided in future interagency acquisitions.

For example, the checklist states that, for contractor performance evaluations, the
requesting agency is responsible for tracking, measuring, and reporting to the servicing
agency contracting officer on the performance of the contractor. The servicing agency is
responsible for documenting performance in the contract file and inputting data into the
Past Performance Information Retrieval System. This guidance should help eliminate the
confusion and uncertainty as to DoD and servicing agency responsibilities on collecting
and recording past performance information.

As stated earlier, the VA Office of Acquisition and Logistics decided to terminate its
assisted acquisition support to the Air Force. This does not affect purchases made by the
VA Information Technology Acquisition Center. However, this effectively ends DoD
use of VA for assisted acquisitions as the VA Office of Acquisition and Logistics worked
on 94 percent of purchases made by DoD organizations.


Client Comments on the Finding and Our Response
Assistant Secretary of Defense for Health Affairs Comments
Although not required to comment, the Assistant Secretary of Defense for Health Affairs
provided comments and agreed with the findings and conclusions of the draft report. The
Under Secretary of Defense (Comptroller) notified the TRICARE Management Activity
of the potential bona fide needs violation on August 18, 2008. An investigation was
completed, which determined a bona fide needs violation had occurred. The Assistant
Secretary also stated that DoD IG identified that expiring FY 2006 Operations and


                                           18
Maintenance funds had been placed on a delivery order that had a period of performance
beginning October 1, 2007. The violation was corrected by financing the delivery order
with FY 2007 Operations and Maintenance funds.

The Health Affairs Office requested in its comments that the DoD IG remove the
discussion of the TRICARE Management Activity bona fide needs violation prior to
publishing the final report.

Our Response
We recognize the TRICARE Management Activity took action to correct the potential
bona fide needs violation; however, we are reporting on what occurred during the audit.
Therefore, we are not removing the discussion of the TRICARE Management Activity
bona fide needs violation because it shows evidence of a systematic problem in DoD.

Recommendations, Client Comments, and Our
Response
We are not making recommendations to the Under Secretary of Defense for Acquisition,
Technology, and Logistics regarding the various acquisitions and contracting issues.
Actions needed to correct the problems noted were recommended in DoD IG Report
No. D-2008-036, “FY 2006 DoD Purchases Made Through the U.S. Department of
Veterans Affairs,” December 20, 2007.

A.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics ensure DoD organizations are aware of current
requirements that DoD contracting officers should review all purchases over
$500,000, and that Air Force guidance be updated to reflect current requirements.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Director, Defense Procurement, Acquisition Policy, and Strategic Sourcing,
responding for the Under Secretary of Defense for Acquisition, Technology, and
Logistics, agreed. The director stated that a policy memorandum (Interagency
Acquisition) was issued on January 18, 2008, requiring a warranted contracting officer to
review all Non-Economy Act Orders greater than $500,000. Air Force Instruction 65-
116 also requires a Determination and Findings for Interagency Acquisitions, assisted or
direct, when the MIPR value exceeds $100,000. In addition, the director stated that the
Air Force is currently reviewing its policies regarding interagency acquisitions, and will
clarify that interagency acquisitions, for both direct and assisted acquisitions over
$500,000, must be reviewed by a warranted contracting officer. The Air Force review is
expected to be completed and any policy updated by March 2009.

Our Response
The comments were responsive, and no further comments are required.




                                            19
A.2. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer provide a status update on the assisted acquisition preliminary
reviews, initiated under DoD Financial Management Regulation, volume 14,
chapter 3, “Preliminary Review of Potential Violations,” for apparent bona fide
needs violations identified during the course of the audit.

Office of the Under Secretary of Defense (Comptroller)/DoD
Chief Financial Officer Comments
The Assistant Deputy Under Secretary of Defense (Financial Management), responding
for the Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer, agreed
with the recommendation and stated that two cases were not violations, one case is still
under review, and notified the Air Force to initiate a preliminary review for the remaining
case.

Our Response
The comments were responsive, and no further comments are required.




                                            20
Finding B. DoD Use of Veterans Affairs for
Direct Acquisitions
Defense Supply Center Philadelphia (DSCP) contracting officials did not place delivery
orders through VA FSS contracts in accordance with FAR and DoD procurement
requirements. On 23 direct acquisition purchases reviewed, DSCP contracting officials
did not properly solicit, award, or perform oversight. Specifically,

       on 23 of 23 purchases, DSCP contracting officials lacked acquisition planning to
        determine whether the use of non-DoD contracts were in the best interest of the
        Government;
       on 23 of 23 purchases, valued at $10,034,297, DSCP contracting officials did not
        document that fair notice of requirements were made available to FSS contractors;
       on 22 of 22 purchases,5 valued at $9,915,084, DSCP contracting officials did not
        provide adequate justifications for the use of sole-source procurements;
       on 19 of 21 purchases,6 valued at $9,579,599, DSCP and DoD officials may have
        incurred bona fide needs rule violations; and
       on 11 of 20 purchases,7 DSCP contracting officials did not have sufficient support
        of Government inspections performed for goods.

This occurred because DSCP officials misinterpreted applicable funding and acquisition
policy when awarding direct acquisitions. As a result, DSCP contracting officials making
purchases through VA contracts had no assurance that goods were properly funded and
received at best values.

Background
Defense Supply Center Philadelphia
DSCP was originally established as the Defense Personnel Support Center in 1965.
DSCP, renamed from the Defense Personnel Support Center in 1998, is a primary-level
field activity of the Defense Logistics Agency (DLA) with a mission to provide food,
medicine, and supplies. Specifically, DSCP ensures the combat readiness of America’s
fighting forces by providing U.S. Service members with food, clothing, textiles,
medicines, medical equipment, and supplies. DSCP also supports U.S. humanitarian and
disaster relief efforts. DSCP is divided into four Supply Chains for Troop Support
(Clothing and Textiles, Medical, Subsistence, and Construction and Equipment). The
DSCP Medical Supply Chain provides 1.6 million medical items for the Military


5
  We could not determine whether one purchase was competed due to lack of available documentation.
6
  We could not determine whether Government funds were properly funded for two purchases at DSCP due
  to a lack of available documentation.
7
  A DSCP contracting official stated three of the 23 purchases did not have receiving reports because goods
were not completely delivered and installed at DoD medical facilities.


                                                    21
Services. Each year the Medical Supply Chain processes 530,000 customer orders using
approximately 300 suppliers. In FY 2007, DSCP awarded approximately 1,280 contract
actions for goods through the VA FSS, valued at approximately $19.0 million

DoD/DLA Working Capital Fund Charter
On April 13, 2007, the Under Secretary of Defense (Comptroller) and the Director of the
DLA approved the establishment of a new Defense Working Capital Fund, Supply
Management Charter. The charter states that the Supply Management Business Area, a
Defense Working Capital Fund activity, was established under the authority of
10 U.S.C. 2208. The charter adds that the Supply Management Business Area provides
the Military Services and non-DoD civilian agencies wide-ranging logistical support for
the medical supply chain.

Economy Act Authority (31 U.S.C. 1535)
The Economy Act allows a DoD activity to place an order with a different Military
Department, Defense agency, or another Federal agency for goods or services.
Therefore, DoD organizations use the Economy Act to send funds to DSCP. Economy
Act orders must be supported by a Determinations and Findings (D&F) that the use of
interagency support capabilities is in the best interest of the Government and the required
goods, supplies, or services cannot be obtained as conveniently or economically by
contracting directly with a private source. Economy Act orders should also include a
description of the supplies or services ordered, delivery requirements, funds citation,
payment provision, and acquisition authority. If specific legal authority does not exist for
a transaction placed with a non-DoD agency, the default legal authority is the Economy
Act.

DoD Use of MIPRs and Requisitions for Direct Acquisitions
DoD requesting activities transfer funds to DoD servicing activities through the use of
MIPRs (DD Form 448) and requisitions (DD Form 1348-6) for the placement of an order
directly against an interagency contract. When a DoD requesting activity sends a MIPR
or requisition to a DoD servicing activity within DoD, the servicing activity accepts and
obligates the requesting activities funds to create a binding obligation between the two
activities.

DSCP Direct Acquisitions Through VA FSS Contracts
A direct acquisition consists of a requesting agency placing an order directly against the
servicing agency’s contract vehicle. At DSCP the contracting officials place delivery
orders on behalf of DoD customers through VA FSS contracts for medical equipment and
supplies. DSCP officials charge DoD customers a 2 percent surcharge to award contracts
through the VA FSS. VA is delegated, through the General Services Administration, the
responsibility to establish and administer the VA FSS contracts for health care-related
commodities; however, the VA contracting officer does not participate in the placement
of the order for direct acquisitions. A .75 percent FSS program operating fee is included
within the FSS prices and this fee is paid by the customer. DoD can eliminate the lengthy
process of awarding new contracts by placing direct acquisitions through VA FSS



                                            22
contracts. The VA FSS Program is a multiple-award schedule, with indefinite-delivery,
indefinite- quantity type contracts that are available for use by all Federal agencies

Acquisition Planning for Direct Acquisitions
DoD program and other requesting managers must seek early involvement of appropriate
financial management and contracting personnel to ensure that the resultant acquisition
strategy is in the best interest of DoD in terms of meeting requirements, schedule, cost
effectiveness, oversight and administration, and availability of a contract vehicle within
DoD. FAR Subpart 7.1, “Acquisition Plans,” states that agencies are to perform
acquisition planning for all acquisitions.

Best Source for Acquisition Supplies
On all of the purchases reviewed, DSCP contracting officers lacked acquisition planning
that supported making the purchases through VA FSS contracts was in the best interest of
the Government. Acquisition planning must be performed for acquisitions once an
agency need is identified. FAR Subpart 17.5, “Interagency Acquisitions Under the
Economy Act,” requires the completion and execution of a written justification known as
a D&F prior to placing an Economy Act order for supplies or services to another Federal
agency. The D&F documents the specific rationale and required justification for use of
an interagency acquisition. Thorough acquisition planning provides realistic delivery and
performance schedules, identifies planned management responsibilities for contract
performance, and develops a tentative cost basis for the purchase.

To further clarify the requirements for acquisition planning of interagency contracts, the
DoD October 29, 2004, Memorandum, states that direct acquisitions that exceed the
simplified acquisition threshold must include:

               evaluating whether using a non-DoD contract for such actions is in the
               best interest of the DoD . . . , determining that the tasks to be
               accomplished or supplies to be provided are within the scope of the
               contract to be used; reviewing funding to ensure it is used in
               accordance with appropriation limitations …

DSCP did not comply with these policies and procedures when procuring goods. For
instance, a DSCP contracting official did not prepare an adequate D&F for dental chairs
on behalf of the Naval School of Health Sciences. The boilerplate D&F did not specify
the rationale for the use of the VA FSS contract. Rather, the boilerplate D&F states:

               This order/BPA is in the best interests of DLA. I have considered such
               factors as satisfying customer requirements; cost effectiveness (taking
               into account discounts and fees) and price; delivery schedule; non-
               availability of a suitable contract within DOD; contract
               administration/oversight; small business opportunities; and any other
               factors, as applicable

The boilerplate statement was copied directly from the DSCP Guiding Principles for
Acquisition (DGPA) Subpart 7.90, “Use of Non-DoD Contracts.” Eighteen of
23 purchases we reviewed contained the same boilerplate statement that did not explain


                                                 23
how it was determined that the use of interagency acquisitions were in the best interest of
the Government. Furthermore, purchases did not provide a reason why services could
not be obtained conveniently or economically by contracting directly with private
sources. Rather than relying on boilerplate information from the DGPA, DSCP officials
must further explain why the use of interagency contracts is in the best interest of DoD.
DSCP officials did not fully understand the requirements for preparing the D&F.
Adequate planning will assist DoD in meeting its needs in the most effective,
economical, and timely manner. Appendix E lists the purchases and issues identified.

Economy Act Order Preparation
Eighteen of 23 purchases from DoD organizations to DSCP did not include all the
elements for placing an Economy Act order. These Economy Act orders did not always
include a description of the supplies or services ordered, delivery requirements, or fund
citation. According to DoD Financial Management Regulation, volume 11A, chapter 3,
“Economy Act Orders,” Economy Act orders may be placed on any form that is
acceptable to both the requesting and servicing agencies. DoD customers used MIPRs
and requisitions to place orders through DSCP; however, these MIPR and requisition
forms did not always include the elements that should have been included to place
Economy Act orders. For example, the 79th Medical Group sent a MIPR to DSCP that
listed the incorrect statutory authority. Instead of listing the Economy Act authority that
the purchase was eventually awarded under, the MIPR listed section 8111, title 38,
United States Code (38 U.S.C. 8111), “Sharing of Department of Veterans Affairs and
Department of Defense Health Care Resources,” as the statutory authority. The DoD
customer also failed to list the delivery date for goods that would provide the servicing
activity with information on when the requesting activity requires the goods. DSCP
officials should ensure DoD organizations correctly prepare funding documents prior to
accepting them.

Misuse of Government Funds
Restrictions on Appropriations Transferred to Working
Capital Fund
DoD requesting activities use Economy Act authority to transfer funds through MIPRs
and requisitions to DSCP for the acquisition of medical equipment and supplies. DSCP
contracting officers acquire medical equipment and supplies on behalf of the requesting
activities through their working capital fund. The DSCP Defense Working Capital Fund
receives reimbursements from other organizations for the goods purchased. Though the
working capital fund does not have a restriction on the time funds are available for
obligation, fiscal limitations on appropriations of requesting activities may not be
changed.




                                            24
Potential Violations of Bona Fide Needs Rule
For 19 of the 21 purchases8 reviewed, valued at approximately $9.6 million, DoD funding
authorities potentially violated the bona fide needs rule. Specifically, DoD authorities
may have violated the bona fide needs rule by using annual Operations and Maintenance
appropriations to fund the purchase of goods that were contracted for and received in the
year after the appropriation expired. Funding policy states that goods may be received in
the year following the appropriation if there were delivery, production lead time, or
unforeseen delays. However, these exemptions would not apply to commercial items and
FSS purchases are commercial items. For example, the Air Force Medical Operations
Agency sent MIPR F1ATB26271G004 for $163,164 to DSCP on September 28, 2006,
using FY 2006 Defense Health Program funds to purchase a dermatological laser system.
FY 2006 Defense Health Program funds expired on September 30, 2006. The contract
for the medical equipment was awarded on March 12, 2007, and had a scheduled delivery
date of April 1, 2007. The contract had to be awarded in FY 2006 in order to use
FY 2006 funds. Furthermore, the receipt of goods after the DoD appropriation expired
could not be justified because of delivery time, production lead time, or unforeseen
delays. Use of FY 2006 Defense Health Program funds to satisfy a FY 2007 requirement
does not meet the intent of the bona fide needs rule.

In another example, the U.S. Army Medical Agency sent requisition W33BTY60698502
for $211,814 to DSCP on April 25, 2006, using Defense Health Program FY 2006 funds.
The U.S. Army Medical Agency funds were for the purchase of a robotic medication
dispensing system. The contract for the dispensing system was awarded on
February 28, 2007. Use of FY 2006 Defense Health Program funds to satisfy a FY 2007
requirement does not meet the intent of the bona fide needs rule.

Though the contracts were awarded using DSCP working capital funds, the Defense
Health Program funds cannot be changed from “1-year” to “no-year” funds when sent to
DSCP. Thus, the availability of an appropriation cannot be expanded or otherwise
changed by transfer to the working capital fund. The DoD Financial Management
Regulation, volume 11B, chapter 1, “Defense Working Capital Funds General Policies
and Requirements,” states that appropriated funds cited on reimbursable orders are
available only for the purposes permissible under the source appropriation and remain
subject to the same restrictions. DSCP contracting officials did not correctly adhere to
appropriation restrictions.

Throughout the audit, we worked with the personnel at the Office of the Under Secretary
of Defense (Comptroller)/DoD Chief Financial Officer and provided them with
information on the potential Antideficiency Act violations identified. The office directed
the DoD Components to initiate preliminary reviews in accordance with DoD 7000.14-R,
“Financial Management Regulations.” See Appendix F for the details of the 19 direct
acquisition purchases that we believe improperly used Government funds.


8
 We could not determine whether Government funds were properly funded for two purchases at DSCP due
to lack of available documentation.


                                                25
Non-Competitive Awards
The Director of Defense Procurement and Acquisition Policy issued a January 28, 2005,
memorandum, “Use of Federal Supply Schedules and Market Research,” that requires
contracting officers to solicit as many contractors as practicable when using the FSS.
Furthermore, the contract files should explain instances where it is not possible to solicit
contractors. Non-competitive awards should include sole-source justifications that
clearly support and explain why full and open competition is not possible. Contracting
officers must also seek discounts for orders exceeding the maximum order threshold
when utilizing the FSS.

Fair Notice
DSCP contract files did not provide evidence that fair notice of requirements for
purchases were made available to FSS contractors. A DSCP contracting official stated
that DoD knows which contractors can fulfill Military Services information security and
certification unique requirements. Particularly, DSCP contracting officials stated that
“there is no central database or central source of information regarding which vendors
and products do/do not meet the services’ information security and certification
requirements.” None of the contract files contained documentation indicating that fair
notice was provided to all contractors to determine whether there was any interest in
submitting a proposal for the requirement. Rather, DSCP contracting officials relied on
knowing all contractors that can fulfill their need, though contractors that were
supposedly able to meet DoD requesting activity requirements were not documented in a
central location.

The Defense Federal Acquisition Regulation Supplement 208.4, “Federal Supply
Schedules,” states that the contracting officer provide fair notice of the intent to make the
purchase, including a description of the supplies to be delivered and the basis upon which
the contracting officer will make the selection. The Defense Federal Acquisition
Regulation Supplement 208.405 further states that a determination in writing is prepared
if fewer than three offers are received. The documentation should clearly explain efforts
made to obtain offers from at least three contractors. FAR 8.402 also states that
“ordering activities shall post a Request for Quotation to e-Buy9 when an order contains
brand name specification.”10 According to FAR Subpart 4.8, “Government Contract
Files,” the contracting office contract file should include the list of sources solicited. The
DSCP contract files did not contain support that the requirement was solicited by posting
the Request for Quotation on e-Buy for the brand name specification purchases. Fair
notice allows FSS contractors to submit quotes and therefore maximize DoD buying
leverage and competition.




9
 E-Buy is an online Request for Quotation tool designed to facilitate the request for submission of
quotations for a wide range of commercial supplies and services offered by Schedule contractors. E-Buy
allows ordering activities to post requirements, obtain quotes, and issue orders electronically.
10
   A brand name product is an item that is peculiar to one manufacturer.


                                                  26
Orders Exceeding the Maximum Order Threshold Price
Reductions
DSCP contracting officials awarded 8 of 23 purchases reviewed above the maximum
order threshold. Three of eight purchases, valued at $795,023, that exceeded the
maximum order threshold did not have supporting documentation in the contract files
demonstrating that price reductions were sought. FAR Subpart 8.405-1(d), “Ordering
Procedures for Supplies, and Services Not Requiring a Statement of Work,” states that
each schedule contract has a maximum order threshold. FAR Subpart 8.405-1 further
states that although a price reduction may be sought for an order at anytime, the threshold
represents the point where the ordering activity must seek a price reduction. Though a
DSCP contracting official stated that “the attempt to receive a price reduction should be
documented in the contract file,” no documentation demonstrating that price reductions
were sought was found in some the contract files. For instance, DSCP contracting
officials purchased medication storage cabinets on behalf of the U.S. Army Medical
Department Activity in Fort Hood, Texas. The medication storage cabinets totaled
$336,173, which was in excess of the $300,000 FSS maximum order threshold. The
DSCP contracting officials did not include any information regarding price reductions
that were sought to ensure the Government received the best value.

Sole-Source Awards
DSCP contracting officials did not adequately justify the use of sole-source procurements
for purchases. Twenty-two contract actions11 were reviewed to determine the adequacy
of contracts awarded on a sole-source basis. All of the contract actions failed to comply
with FAR requirements when making sole-source awards. FAR Subpart 8.405-6(a) states
“orders placed under Federal supply schedules are exempt from the requirements in
Part 6”; however, FSS orders were not always prepared in compliance with FAR
Subpart 8.4, “Federal Supply Schedules.” Though all of the purchases were awarded
under the FSS, DSCP contracting officials misinterpreted requirements for FSS orders by
preparing orders in accordance with FAR Subpart 6.3, “Other Than Full and Open
Competition” and FAR Subpart 16.5, “Indefinite-Delivery Contracts.” Of the 22 FSS
contract actions reviewed, 5 of the actions cited FAR 8.405-6, “Limited Sources
Justification and Approval,” stating that only one contractor can satisfy the requirement.
Another four cited FAR 6.302-1, “Only One Responsible Source,” and four cited FAR
Subpart 16.505(b), “Orders Under Multiple Award Contracts.” The remaining 9 contract
actions did not cite any FAR exceptions. FAR Subpart 8.405-6, “Limited Sources
Justification and Approval,” states that circumstances that may justify restrictions of
ordering supplies not requiring a statement of work include only one source capable, new
work is a logical follow-on, and urgent and compelling need exists. DSCP contracting
officials did not always apply the correct FAR requirements when awarding sole-source
contracts. Contracts that are not fully competed must provide appropriate FAR
exceptions and sufficiently explain the rationale why the requirement was not competed.


11
  Overall, we reviewed 23 purchases but we could not determine whether one purchase was competed due
to lack of available documentation.



                                                 27
For instance, DSCP contracting officials issued sole-source purchase orders, valued at
approximately $5.6 million, on behalf of DoD Northeast Military Treatment Facilities for
Sigma International pumps. The requirement was for intravenous infusion pumps, poles,
and accessories that were not at combat locations. The J&A states that market research
revealed 19 contractors that were considered to have “IV Pump” equipment or
accessories on the FSS. The J&A further states that there was only one contractor that
met the five essential criteria of the requesting Medical Treatment Facility. Specifically,
the essential criteria consist of Food and Drug Administration approval, single-channel
design, dose error reduction technology, gravity-tubing design, and less than 5-pound
weight. The J&A did not adequately justify why two other pumps that were considerably
less expensive, and did not have gravity-fed tubing or weigh less than 7 pounds were
unacceptable. The alternative pumps would have cost $3,335,720 and $1,960,341,
respectively. The J&A mentions that the gravity-fed tubing is supposed to reduce the risk
of infection, but the J&A does not measure the significance or provide details of the
reduced patient infection rate through the use of gravity-fed tubing. In addition, the J&A
says that the 5-pound weight limit is needed to avoid the tip-over of poles. It seems that
the best value pumps should have been selected, then the acquisition of poles capable of
handling the weight of pumps. Thus there would be no need to select pumps with a
weight limit of 5-pounds. The J&A identifies another contractor that could fulfill the
requirement for the accessories, but DSCP personnel did not solicit bids because they
decided other contractors’ prices would be higher. The J&A must adequately justify the
reason why a requisition cannot be competed. Based on the current J&A, it could not be
determined whether the medical equipment was essential to the Government
requirements, as required by FAR 8.405-6(a)(2), or merely desirable, which would not
justify a sole-source purchase.

Contract Oversight and Reporting
Inspection and Receipt of Goods
On 11 of 20 purchases,12 DoD did not always perform sufficient oversight to ensure the
Government received the value of goods agreed to within the contract terms. FAR
Subpart 46.401(a) states,

                 Government contract quality assurance shall be performed at such
                 times (including any stage of manufacture or performance of services)
                 and places (including subcontractors’ plants) as may be necessary to
                 determine that the supplies or services conform to contract
                 requirements.

DoD did not comply with FAR Subpart 46.401(f) that states that Government inspection
must be documented on an inspection or receiving report form or commercial shipping
document/packing list. For instance, DSCP contracting officials did not provide a
receiving report for a digital dental x-ray system, valued at $105,651. According to a


12
 A DSCP contracting official stated 3 of the 23 purchases did not have receiving reports because goods
were not completely delivered and installed at DoD medical facilities.


                                                   28
DSCP contracting official, the receipt and payment process includes the contractor
submitting a Material Receiving Report (DD Form 250) to DoD for request of payment.
DSCP personnel then work with the DoD requesting activity to confirm that medical
systems are delivered and installed. Authorizing officials for the DD Form 250 include
the DSCP biomedical engineer and DSCP contracting officer. DoD officials forward the
completed DD Form 250 to the vendor who submits the DD Form 250, along with the
invoice, to the Defense Finance and Accounting Service for payment. The requested DD
Form 250 was not provided by DSCP personnel; though DSCP personnel stated the
inspection process included the completion of the DD Form 250. Instead, the DSCP
contracting officer provided a computer printout that was generated from inputting
information into the DLA Enterprise Business System from the receiving report. The
computer printout or onscreen image is not a source document or DD Form 250. These
electronic documents represent electronic information that does not always provide
information on the origin, authorization, or integrity of information.

Another purchase for Piperacillin medication, valued at $119,214, did not have
documentation showing that a receiving report was completed for the goods that were
scheduled to be delivered by July 2007. Several requests were made for the receiving
report that was not provided. If Government monitoring and inspections of goods are not
properly performed, this may result in a lack of accountability and payment for goods
that may not comply with contract terms.

Collection and Recording of Past Performance
DSCP contracting officials did not collect and record past performance information for
the five purchases13 that exceeded the $5.0 million threshold. DoD policy states that past
performance information is to be collected for operations support that exceeds the
$5.0 million threshold. Operations support includes troop support that consists of food,
subsistence items, clothing, textile-related items, medical supplies, and equipment. The
DSCP medical supply chain’s troop support includes medical supplies, equipment,
pharmaceuticals, and other health care items. Annual performance assessment reports
must be completed for contracts with performance periods exceeding 1 year and in
accordance with the mandatory DoD past performance information collection thresholds.
Additionally, DoD policy also directs that past performance information be collected on
contracts if the collection threshold is exceeded by the exercise of option, modification,
or order.

For instance, DSCP purchased infusion pumps and accessories for five medical treatment
facilities. Five purchase orders were awarded under a base contract for a total of
$5.6 million. DSCP contracting officials stated that they consider each delivery order to
be a separate contract. Furthermore, these DSCP contracting officials added that since
the individual purchase orders did not exceed the $5.0 million threshold, past
performance information was not collected and recorded into a past performance system.
According to DoD policy, past performance information should have been collected.

13
  Eighteen of the 23 purchases reviewed did not require collection and recording within a past performance
information system because they were below the Operations Support $5.0 million threshold.


                                                   29
DSCP combined the five purchases together when preparing the customer’s statement of
need, limited source justification, and price negotiation documentation; however, the
methodology for how purchases were handled differed for past performance. DSCP did
not properly comply with DoD policy for the collection and recording of past
performance information for these purchases that serviced the five medical treatment
facilities.

On November 27, 2007, the Director, Defense Procurement and Acquisition Policy
issued a “Past Performance Information,” memorandum that states it is important that the
acquisition workforce input contractor past performance information into the DoD data
capture system, Contractor Performance Assessment Reporting System, whenever a
procurement action meets the DoD dollar threshold. Past performance information is a
tool used to provide feedback to contractors on actual contract performance and the
information is utilized in the source selection process. When past performance
information is used effectively, there is an expectation of noticeable performance
improvements and greater efficiency and effectiveness of operations. Regarding the
recording of past performance information in the Past Performance Information Retrieval
System, the memorandum, states:

               PPIPRS [Past Performance Information Retrieval System] collects and
               retains past performance information on contractors for the entire
               Federal Government. DoD Components are required to load past
               performance information into CPARS [Contractor Performance
               Assessment Reporting System] which automatically feeds completed
               performance assessments to the PPIPRS [Past Performance Information
               Retrieval System].

The recording of past performance provides an indication of how well the contractor
performed work on the contract. Furthermore, source selection officials should use past
performance information when making source selection decisions. These completed
performance assessments are a major evaluation factor of contract award when making
“best value” selections. The recording of past performance information also provides a
powerful motivator for contractors to maintain high quality performance or improve
inadequate performance before the next reporting cycle. By not collecting past
performance information, source selection teams have a more difficult time determining
whether the contractor can fulfill requirements of proposal.


Conclusion
DoD IG Report No. D2008-022, “FY 2006 DoD Purchases Made Through the National
Institutes of Health,” November 15, 2007, reported similar results regarding DSCP
contracting activities. Specifically, the report stated 22 of 29 purchases (76 percent) were
awarded on a sole-source basis, and problems with the award selection documentation
were noted. In addition, the report stated 25 delivery orders reviewed potentially violated
the bona fide needs rule.




                                               30
In our review of the VA, we found that 22 purchases were awarded on a sole-source basis
with inappropriate justification and 19 of 21 purchases (90 percent) potentially violated
the bona fide needs rule. DSCP should work to correct the problems identified and
follow proper FAR and DoD guidance.

DoD program, financial, and contracting personnel must work together to properly plan
the fulfillment of the requirement. A team approach can help ensure the utilization of
interagency contracts are the best alternative when procuring DoD requirements. DoD
officials should also ensure that funds do not violate their purpose, time, and amount
limitations when being transferred to or used by the servicing activity for direct
acquisitions. Interagency contracts are intended to leverage the Government’s buying
power and simplify the procurement of commonly used goods and services but they do
not provide funding authority beyond those provided to the requesting activity.

In addition, contracting officials should try to promote competition to increase the
probability that the Government receives the best value. Competition can also generate
savings and performance improvements. Restricting competition should be avoided
whenever possible. Proper planning can also reduce the possibility of issuing non-
competitive purchases. If contracting officials must issue noncompetitive acquisitions,
these acquisitions should include adequate justifications on why the contracts were not
open to competition. Furthermore, contracting officials must follow appropriate guidance
when issuing noncompetitive contracts. Sole-source justifications must include FAR
parts that regulate the purchases. It is vital that contracting officials are familiar with the
applicable FAR parts when awarding varying types of contract vehicles.

Finally, contracting officials must follow established contract quality assurance policies
and procedures to ensure the Government receives goods that were agreed to within the
contract. Contracting officials must complete and document the inspections and receipt
of goods. All DoD acquisitions that exceed the established past performance thresholds
should collect and record past performance information. By adhering to Government
policies and procedures, Government officials reduce the risk of improperly using
Government funds and better protect DoD interest when obtaining goods.

Client Comments on the Finding and Our Response
DLA Comments
The Director, DLA Accountability Office provided comments on Fair Notice, Price
Reductions on Orders Exceeding the Maximum Order Threshold, Sole-Source Awards,
Inspection and Receipt of Goods, and Collection and Recording of Past Performance.
The director agreed that 23 of 23 purchases were not placed on e-Buy. DLA officials
issued guidance in September 2007 and stated all FSS purchases have been posted on
e-Buy since the guidance effective date. The director added that compliance with
guidance will be monitored during FY 2009.

The director partially agreed with the price reduction on orders exceeding the maximum
order threshold portion of the finding. The report identifies 8 of 23 purchases issued


                                              31
above the maximum order threshold. The director stated a review of these contracts was
performed and found only one of eight contracts exceeding the maximum order threshold
and lacking documentation.

The director partially agreed with the portion of the finding on sole-source awards. The
report states none of the 22 purchases reviewed provided an adequate justification for the
use of a sole-source award. The director stated that a review found that 22 of 23 limited
source purchases were properly executed. Only one contract file was deficient because it
did not contain a limited source justification. He added that 17 of 22 contract files
included an adequate limited source justification in the narrative. The director stated
FAR 8.405-6(g) does not require the inclusion of a FAR citation. For the remaining five
contract files, the director agreed with the report that the limited source justifications
should have had additional support and documentation. He stated that DSCP officials
will ensure that future sole or limited justifications contain the necessary information to
support the contracting officer’s decision.

The director disagreed on the portion of the finding regarding inspection and receipt of
goods. The report states that on 11 of 20 purchases, DoD did not always perform
sufficient oversight to ensure goods received were in accordance with contract terms.
The director added that the contract files were considered deficient because DSCP
personnel provided screen shots from their business system instead of the DD Form 250.
The director stated that they were not informed that the documentation was inadequate
and were not given opportunity by DoD IG to provide additional or alternative
information. A review of these contracts was performed and found that 22 of 23 contract
files contained adequate proof of delivery and receipt of the goods purchased.

The director agreed with the finding on collection and recording of past performance
data. DLA stated they will take the necessary corrective actions and will continue to
monitor the collection and recording of contractor past performance data.

Our Response
While we agree that DSCP executed 22 of 23 limited source justifications, we disagree
that 17 of 23 limited source justifications were adequately prepared. Purchases we
reviewed should have complied with FAR Subpart 8.405-6, “Limited Sources
Justification and Approval,” that states circumstances that may justify restrictions of
ordering supplies not requiring a statement of work include only one source capable, new
work is a logical follow-on, and an urgent and compelling need exists. Moreover, FAR
Subpart 8.405-6(a) states “orders placed under Federal supply schedules are exempt from
the requirements in Part 6”; however, FSS orders were not always prepared in
compliance with FAR Subpart 8.4, “Federal Supply Schedules.” Though the sole-source
justifications mention FSS vendors, we maintain that DSCP contracting officials
misinterpreted requirements for orders by preparing orders in accordance with FAR Part
6.3, “Other Than Full and Open Competition,” and FAR Subpart 16.5, “Indefinite-
Delivery Contracts.” The director said that FAR 8.405-6(g) does not specifically require
inclusion of a FAR citation. However, contracting officers should know which parts of
the FAR are applicable to each purchase. Further, the DSCP contracting officers did not


                                            32
comply with FAR 8.405-6(d), which requires brand name specifications be posted on e-
Buy. If the DSCP contracting officers used the correct regulations, then they would have
known that requirement existed. Citing incorrect FAR exceptions should not be
overlooked when preparing sole-source justifications.

The director also notified DoD IG that they were able to locate five documents below the
maximum order limitation, one request for price reduction e-mail, and four signed
receiving reports (DD Form 250). Though the director said they located these documents
that they did not provide, the systematic problems that exist at DSCP remain unchanged.
These documents could reduce the number of problems, but not eliminate the problems
that were noted during our review. Our visit to DSCP found that contract files were not
always easy to obtain and were incomplete. Specifically, DSCP contracting officials had
difficulty finding exactly where contract files were located. Additionally, entire contract
files we copied lacked all of the contract information. Furthermore, information we
requested upon our return from DSCP was not provided in its entirety. For example, we
specifically requested the DD Form 250 for each purchase while visiting DSCP. DSCP
officials were only able to provide the DD Form 250 for some purchases during our visit.
After our visit, we sent a follow-up e-mail to give DSCP an opportunity to provide
documentation that we discussed during our visit. Instead of providing the actual
receiving report we requested, DSCP provided copies of onscreen images.


Recommendations, Client Comments, and Our
Response
We are not directing recommendations to the Under Secretary of Defense for
Acquisition, Technology, and Logistics regarding the multitude of acquisitions and
contracting findings. Actions needed to resolve the direct acquisitions issues noted were
recommended in DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made
Through the National Institutes of Health,” November 15, 2007, and DoD IG Report
No. D-2007-023, “FY 2005 DoD Purchases Made Through the National Aeronautics and
Space Administration,” November 13, 2006.

B.1 We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics ensure contracting personnel receive training that focuses
on working capital fund restrictions when awarding direct and assisted acquisitions.
The training should also emphasize the bona fide needs rule and potential
Antideficiency Act violations.

This is a new recommendation and caused the other recommendations to be renumbered.
We are requesting that the Under Secretary of Defense for Acquisition, Technology, and
Logistics provide comments to the final report by February 20, 2009.




                                            33
B.2. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer:

        a. Ensure financial personnel receive training that focuses on the use of
working capital funds for direct and assisted acquisition purchases. The training
should also emphasize the bona fide needs rule and potential Antideficiency Act
violations.

Office of the Under Secretary of Defense (Comptroller)/DoD
Chief Financial Officer Comments
The Assistant Deputy Under Secretary of Defense (Financial Management), responding
for the Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer, partially
agreed with the recommendation and stated that they have requested the Graduate
School, USDA update their “Working Capital Funds” course to include additional
information that emphasizes funding restrictions and reviews the bona fide needs rule.
The Assistant Deputy stated that the recommendation to ensure contracting officers
receive training should be to the Under Secretary of Defense for Acquisition,
Technology, and Logistics.

Our Response
The comments were responsive, and no further comments are required. Further, we agree
that the recommendation should have also been addressed to the Under Secretary of
Defense for Acquisition, Technology, and Logistics. Therefore, we added a
recommendation to the Under Secretary of Defense for Acquisition, Technology, and
Logistics.

Defense Logistics Agency Comments
Although not required to comment, the Director, DLA Accountability Office disagreed.
The director recognizes that some contract files contain minor deficiencies, but does not
agree that DSCP contracting officials did not comply with procurement regulations. The
director stated the purchases are not conducted under the authority of the Economy Act,
but under the authority of 10 U.S.C. 2208. The director added that because they do not
transfer funds to other agencies for the service of assisted acquisitions on behalf of DLA,
the authority of the Non-Economy Act Orders also does not apply to DLA. Finally, the
director stated they are not responsible for the determination of a Military Service bona
fide need; that determination is the responsibility of the Service.

Our Response
We disagree with the position that the DLA supply operations are conducted pursuant to
the specific statutory authority of 10 U.S.C. 2208 and not subject to the Economy Act.
The DSCP contracting officials were unaware of the applicable requirements when
awarding direct acquisitions on behalf of requiring activities. DSCP officials relied on
the Defense Working Capital Fund, Supply Management Charter to fulfill DoD requiring
activity requirements. The Charter states that the Supply Management Business Area, a
Defense Working Capital Fund activity, was established under the authority of


                                            34
10 U.S.C 2208. The DoD Financial Management Regulation, volume 11A, chapter 1,
“General Reimbursement Procedures And Supporting Documentation,” states that DoD
working capital funds are established by 10 U.S.C. 2208 as one means to encourage one
DoD activity to perform work for another DoD activity based on the “Project Order Law”
or on the Economy Act.

A “project order” is a specific, definite, and certain order issued under the authority
contained in 41 U.S.C. 23, and may be issued only to DoD-owned establishments that
have been given the authority to operate a reimbursable program in the amount equal to
or exceeding the project order amount. Moreover, “project orders” shall be issued to
DoD-owned establishments that are capable of performing substantially the work
ordered. Specifically, the DoD-owned establishments shall incur costs of not less than
51 percent of the total costs attributable to rendering the work or services ordered.

However, if a project order cannot be placed with another DoD-owned establishment
because that establishment would fill the order by contracting with a commercial concern
for performance of substantially the entire order, then the order could be placed through
the Economy Act. The Economy Act permits interservice support, where an activity
needing supplies or services (requesting customer) obtains them from another activity
(servicing performer). Furthermore, the Economy Act allows a DoD activity to place an
order within the same DoD Component, another DoD Component, or another Federal
agency for goods or services. DoD requiring activities used MIPRs and requisitions to
place orders through DSCP, which were eventually fulfilled through the use of private
sources. As note above, 10 U.S.C. 2208 allows work to be performed on the basis of the
Economy Act. Therefore, for interagency acquisitions, DSCP officials should be
accepting the funds from DoD organizations under the Economy Act, which may not be
used to circumvent conditions and limitations imposed on the use of funds. And when
completing the transactions and making purchases using non-DoD contracting officials or
the FSS, DSCP contracting officers should follow DoD Non-Economy Act guidance and
requirements.

We also disagree with the Director, DLA Accountability Office position that DLA
officials are only required to comply with its Defense Working Capital Fund’s
limitations, rather than Military Service’s fund limitations when procuring supplies on
behalf of Military Services. If an order meets both legal and regulatory requirements,
DLA officials can obligate those funds. However, the obligation only occurs between the
requiring activity and servicing activity. Specifically, 31 U.S.C 1532 states “an amount
available under law may be withdrawn from one appropriation account and credited to
another or to a working fund only when authorized by law.” For instance, if a DLA
working capital fund is credited with an appropriation from a Military Service, those
funds remain subject to the same limitations that applied to the original funds. DLA
officials do not have the authority to use a Military Service’s funds differently than the
Military Service could use those funds. DLA officials cannot extend the availability of
Military Services funds for the commercial items purchased. The servicing activity must
still order or contract for the supplies in compliance with the fiscal limitations on the
funds provided to them. These funds do not lose their legal character when transferred



                                           35
into the Defense Working Capital Fund, unless there is a specific statute that permits
funds modifications.

        b. Provide a status update on the direct acquisition preliminary reviews
initiated during the course of the audit.

Office of the Under Secretary of Defense (Comptroller)/DoD
Chief Financial Officer Comments
The Assistant Deputy Under Secretary of Defense (Financial Management), responding
for the Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer, agreed
with the recommendation and stated eight cases were deemed no violation, two cases are
under formal investigation, and eight cases are being reviewed. The Assistant Deputy
will notify the Air Force to initiate a preliminary review for the remaining case.

Our Response
The comments were responsive, and no further comments are required.

B.3. We recommend that the Commander, Defense Supply Center Philadelphia
require contracting officers to follow the Federal Acquisition Regulation and the
Defense Federal Acquisition Regulation Supplement, specifically on awarding sole-
source contracts and award documentation. Further, the commander should then
complete a review to determine whether the contracting officers are in compliance
with the acquisition regulations. If violations continue to occur, the commander
should take disciplinary action against repeat offenders, as contracts with issues
have been identified in various interagency acquisition audit reports.


Defense Logistics Agency Comments
The Director, DLA Accountability Office, responding for the Commander, DSCP,
partially agreed. The director did not agree to the prevalence of the errors reported in the
contracts reviewed. However, the director agreed that contracting officers must follow
procurement requirements for the award of sole-source contracts and award
documentation. The DSCP Head of Contracting Activity will write to contracting
officers about the findings in the report and the importance of following procurement
requirements. This will be done within 30 days of publication of the final report.
Further, local guidance will be updated to address non-DoD contracts. Finally, the
director stated that corrective actions are initiated as appropriate.

Our Response
As stated in the report, DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made
Through the National Institutes of Health,” November 15, 2007, reported similar results
regarding DSCP contracting activities. Specifically, DoD IG Report No. D-2008-022
stated that DSCP contracting officers should have followed FAR 16.505 to award
multiple-award contracts, as they previously referenced FAR 8.4 for these purchases. It
appears that DSCP contracting officers started referencing FAR 16.505 for contracts


                                             36
instead of taking into consideration the applicable procurement requirements for contract
vehicles that are being used. Therefore, the commander needs to complete a review to
determine whether contracting officers are compliant. Action needs to be taken against
those contracting officers that are repeat offenders. Accordingly, we request that the
Commander, DSCP reconsider the recommendation and provide comments on the final
report.




                                           37
Appendix A. Scope and Methodology
We conducted this performance audit from September 2007 through October 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This audit was a joint review between the DoD OIG and the VA OIG. We performed the
audit in accordance with the “John Warner National Defense Authorization Act for Fiscal
Year 2007.” This law requires the Inspectors General of DoD and the VA to perform a
second review of the policies, procedures, and internal controls for DoD purchases made
through the VA. We reviewed 23 DoD direct purchases using VA contracts at the DLA
DSCP worth approximately $10.0 million. In addition, we reviewed a total of 40 assisted
acquisition purchases at DoD and VA activities funded by 61 MIPRs valued at
approximately $85.0 million. Four of the 40 purchases were reviewed solely at DoD
activities and 18 of the 40 purchases were reviewed solely at VA activities. We reviewed
18 purchases at both DoD and VA activities. See the table for assisted purchases
reviewed and Appendix C, “Assisted Acquisition Issues.”

                            Assisted Acquisitions Reviewed
                Locations                                     Purchases
                DoD                                               4
                VA                                               18
                DoD and VA                                       18
                   Total                                           40

For assisted acquisitions, the VA OIG provided four Excel spreadsheets listing DoD
purchases made by the VA contracting offices as the universe of the audit. We took a
judgmental sample of 40 purchases from the VA universe. We visited a total of five DoD
and three VA organizations. We visited the Air Force Medical Operations Agency-Fort
Detrick, Air Force Medical Operations Agency-Kelly Air Force Base, Air Force Medical
Operations Agency-Bolling Air Force Base, Air Force 96th Medical Group, and Air
Force 81st Medical Group for the assisted acquisitions. Additionally, we visited three VA
organizations, including the Joint Venture Acquisition Center, the ITAC, and the VASS.

For each site, we attempted to review a minimum of five purchases containing contract
actions between October 1, 2006, and September 30, 2007. We reviewed documentation
maintained by the contracting and program organizations to support purchases made
through the VA. The purchase documents reviewed included MIPRs and the VA
acceptances, statements of work, acquisition plans, COR letters, surveillance plans,
invoices, sole-source justifications, price reasonableness determinations, contract award
documents, task orders, and miscellaneous correspondence.


                                           39
At the DSCP, our review included the following:

              We determined whether DSCP had internal controls in place for direct
               acquisitions and to review the process of making direct acquisitions.
              We determined whether DSCP adequately competed the purchases, in
               compliance with the Defense Federal Acquisition Regulation Supplement.

At each DoD organization visited, our review of assisted acquisitions included the
following:

              We determined whether DoD organizations had internal controls to ensure
               that the proper types of funds and proper year of funds were used for DoD
               MIPRs sent to the VA. We determined whether the organization had
               written procedures covering the use of MIPRs to non-DoD organizations.
               For each purchase reviewed, we determined whether the appropriation
               code was correct and whether that code would be proper if the purchase
               had not been made through the VA.
              We determined whether DoD requesting organizations had internal
               controls for defining requirements and planning acquisitions for purchases
               awarded on the VA contracts. For each purchase reviewed, we
               determined when the organization developed the requirement, why VA
               was selected to make the purchase, and whether DoD determined if it was
               in the best interest of the Government to use the VA. In addition, we
               determined whether there was a bona fide need for the requirement in the
               fiscal year of the appropriation used to finance the requirement.
              We determined whether DoD contracting activities were following
               established procedures for approving purchases made through the use of
               contracts awarded through the VA. Specifically, we determined whether a
               DoD contracting officer was involved in planning the VA purchase.
              We determined how contractor performance was being monitored in
               situations where DoD purchases were awarded on the VA contracts. For
               each purchase reviewed, we determined whether a DoD representative was
               assigned as the COR and signed off on acceptance of contractor work.

At each VA organization visited, our review for assisted acquisitions included the
following:

              We determined whether VA contracting officers adequately competed
               DoD purchases according to the FAR and the Defense Federal Acquisition
               Regulation Supplement. For each sole-source award, we determined
               whether the VA contracting officer prepared a Justification and Approval
               for Other Than Full and Open Competition that adequately justified the
               sole-source award.




                                           40
              We determined whether the VA contracting officers adequately
               documented that the prices paid for the DoD purchases were fair and
               reasonable.

These additional audit steps at the VA organizations were performed on 36 of the
40 purchases reviewed during the audit. We coordinated with VA auditors throughout
our audit.

Use of Computer-Processed Data
The VA OIG provided spreadsheets with the universe of DoD purchases for FY 2007.
From the spreadsheets, we judgmentally selected mostly high-value MIPRs for review.
We did not assess the reliability of the VA-furnished data during this audit. However, we
did not find any discrepancies in the data provided for the 40 purchases reviewed.

We did not assess the accuracy of the past performance information systems used within
DoD, or the Government-Wide Past Performance Information Retrieval System, which is
the official past performance system for compiling data on contractor performance used
throughout the Federal Government.




                                           41
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DoD IG, the
Army, and the VA OIG have issued 25 reports discussing interagency acquisitions.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted VA reports can be accessed at http://www.va.gov.

GAO
GAO Report No. GAO-08-1063, “DoD Financial Management: Improvements Are
Needed in Antideficiency Act Controls and Investigations,” September 2008

GAO Report No. GAO-07-310, “High-Risk Series: An Update,” January 2007

GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance, Planning,
and Oversight Would Enable the Department of Homeland Security to Address Risks,”
September 2006

GAO Report No. GAO-05-456, “Interagency Contracting: Franchise Funds Provide
Convenience, but Value to DoD is Not Demonstrated,” July 2005

GAO Report No. GAO-05-201, “Interagency Contracting: Problems with DOD’s and
Interior’s Orders to Support Military Operations,” April 2005

GAO Report No. GAO-05-274, “Contract Management: Opportunities to Improve
Surveillance on Department of Defense Service Contracts,” March 2005

DoD IG
DoD IG Report, No. D2008-122, “Follow-up on DoD Purchases Made Through the
Department of the Interior,” August 18, 2008

DoD IG Report No. D-2008-082, “Summary Report on Potential Antideficiency Act
Violations Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004
Through FY 2007),” April 25, 2008

DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made Through
the Department of the Interior” March 19, 2008

DoD IG Report No. D-2008-050, “Report on FY 2006 DoD Purchases Made Through the
Department of the Treasury,” February 11, 2008

DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the
U.S. Department of Veterans Affairs,” December 20, 2007

DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the National
Institutes of Health,” November 15, 2007

DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
Department of the Interior,” January 16, 2007


                                          42
DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on DoD
Purchases Made Through Non-DoD Agencies,” January 2, 2007

DoD IG Report No. D-2007-032, “Report on FY 2005 DoD Purchases Made Through the
Department of the Treasury,” December 8, 2006

DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the National
Aeronautics and Space Administration,” November 13, 2006

DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the General
Services Administration,” October 30, 2006

DoD IG Draft Report No. D-2007-D000CF-0262.000, “FY 2007 DoD Purchases Made
Through the National Institutes of Health,” December 15, 2008

DoD IG Report No. D-2006-029, “Report of Potential Antideficiency Act Violations
Identified During the Audit of the Acquisition of the Pacific Mobile Emergency Radio
System,” November 23, 2005

DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General Services
Administration,” July 29, 2005

DoD IG Report No. D-2005-003, “DoD Antideficiency Act Reporting and Disciplinary
Process,” October 14, 2004

DoD IG Report No. D-2004-084, “Antideficiency Act Investigation of the Research,
Development, Test and Evaluation, Defense-Wide Appropriation Account
97 FY 1989/1990 0400,” May 28, 2004

Army
Army Report No. A-2007-0096-FFH, “Proper Use of Non-DoD Contracts, U.S. Army
Medical Command,” March 22, 2007

Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
Management,” May 25, 2004

VA IG
VA Report No. 06-03540-24, “Audit of VA Purchases Made on Behalf of the
Department of Defense,” November 19, 2007

VA Report No. 04-03178-139, “Audit of VA Acquisitions for Other Government
Agencies,” May 5, 2006




                                          43
                                                                                    Purchase      Purchase         No Audit       Inadequate         Inadequate            Inadequate
                                                                                   Reviewed at   Reviewed at       Trail of          MIPR            Acquisition           Interagency
                  DoD Activity                           Purchase                     DoD            VA             Funds         Preparation         Planning             Agreement      »
         , Army                                                                                                                                                                          "'C
          I) Army Office of Information                                                                                                                                                  "'C
                                          I ) CAC Support                                            •                  NIR           •                     N/R                N/R        (1)
               Assurance Compliance
          Air Force
                                                                                                                                                                                          :::J
          2) AFMOA, Fort Detrick          2) Sterilizing Unit. plasma                                                                                                                     Co
                                                                                       •             •                                •                     •                   •
                                          3) Human Patient Simulator                   •             •                                •                     •                   •
                                          4) ANIPRC 150 Tactical Radio
                                                                                                                                                                                          ><
                                          Systems                                      •             •                                                      •                             C')
                                          5) AN/PRC 117 Tactical Radio
                                          Systems                                      •             •                                                      •
                                          6) War Reserve Maintenance                   •             •                                •                     •                   •
         3) AFMOA, Kelly AFB              7) Mandicular/Craniafacial sets              •             •                   •                                  •
                                                                                                                                                                                          »en
                                          8) 840 Ventilators and Accessories           •             •                   •                                  •                             en
                                          9) M I M Analyzer System                     •             •                   •                                  •
                                          10) KC[ VAC ATS                              •             •                                                      •                             en
                                          II) KCI Freedom Wound VAC                    •             •                   .'•          •                     •                             ......
                                                                                                                                                                                          (1)
         4) AFMOA. Bolling AFB             12 Central ized Credentialing Support       •             •                                •                     •
                                           (3) Spectmm Healtllcare Medical                                                                                                                Co
~                                                                                                    •
VI                                        Management                                   •                                              •                     •      I
                                           (4) Administrative Technician               •             •                                •                     •                             »
                                          15 EDS VTC Support
                                                                                                                                                                                          (")
                                                                                       •             •                                                  -   •
     . 5) 96'h MDSS. Eglin AFB            (6) Sterling Medical-Allergist               •             •                                •                     •                            .c
     :                                    17 Family Health RN                          •             •                                •                     •                             c
                                          (8) OB Midwife Nurse                         •             •                                •                     •
     ,                                                                                                                                                                                    en
                                          (9) OB Nurse Practitioner                    •             •                                •                     •                             _.
                                          20) PACUIRNs                                 •                                              •                     •      I                      ......
     , 6) AFMOA. Brooks City-Base         2 L) DMLSS Facility Management                             •                  N/R           •                 N/R                    N/R
     • 7) AFMSA, Brooks City-Base         22.) HAMSN791-T07518 (Edwards)                             •                  N/R           •                 NIR                    N/R        o
                                          23) HAMSN791-T06224 (Andrews)                              •                  N/R           •                 N/R                    N/R        :::J
                                          24) HAMSN79 I (J-06)-01 03                                                                                                                      en
                                                                                                     •                  N/R           •                 N/R                    N/R
                                          (Qffut)/(Nellis)
                                          25) Wireless and IT servicesN791(J­                                                                                                             e-n
                                          07)-POOI5                                                  •                  N/R           •                 N/R                    N/R
                                          26) Facility Maintenance
                                                                                                                                                                                          en
                                                                                                     •                  NIR           •                 N/R                    N/R        c
                                          VOOIOAT06039                                                                                                                                    (1)
         8) HQ ACe. Langley AFB           27) Facility Maintenance                                   •         -    -
                                                                                                                        N/R
                                                                                                                         -    -       •         --      N/R            -   -   N/R -
                                                                                                                                                                                          en
                                                                                   Purchase          Purchase     No Audit       Inadequate    Inadequate     Inadequate
                                                                                  Reviewed at       Re"iewed at   Trail of          ;\UPR      Acquisition    Interagency
                    000 Acti\'ity                      Purchase                      000                VA         Funds         Preparation    Planning      Agreement
           9) 81 ~ Medical Group,           28) HAMSIV791(J-06)-0101
                                                                                                        •           N/R               •           NIR            N/R
                  Keesler AFB
                                            29) HAMSIV79 I (J-07)-0503 (Keesler
                                                                                                        •           NIR              •            N/R            N/R
                                             Bridge)
                                            30) HAMSIVOO IOAT002 (Keesler 6                     I                            I
                                                                                                        •           N/R              •            N/R            NIR
                                             months)
                                            31) Phlebotomist & Lab Technologist       •                                              •             •
                                            32) Admin Assistant Clerks                •                                                            •
                                            33) HVAC                                  •                                              •             •
                                            34) Facility Maintenance Andrews
           10) 79"' Medical Logistics                                                                   •           N/R              •            N/R            N/R
                                            (VOO IOA T0700 I )
           II) AETC, Randolph AFB           35) Syncson Backup Software                                 •          N/R               •            NIR            N/R
                                            36) Electronic Document Management
           12) SAF/FMBMS                                                                                •          N/R               •            N/R            N/R
                                            System
           13) AFCA Scott AFB               37) IT Service                                              •          N/R               •            N/R            N/R
           000 Field Activi'"
           14) Defense Civilian Personnel
                                            38) IT Service                                              •          N/R               •            N/R            N/R
-+:>.
                Management Service
0\                                          39) IT Services                                             •          N/R               •            NIR            N/R
           15) TRICARE                      40) System Engineering                                      •          NIR               •            N/R            NIR
                                                                                     22                36                            32            22
           IS 000 Acti"ities                40 Purchases                                                           5 No                                      3 Inadequate
                                                                                  Purchases         Purchases                    Inadequate    Inadequate




        Note: See the list of acronym definitions at the end of Appendix E.
                                                                                                  I                                                       No DoD
                                                                                                                                                         Collection
                                                                                                                         No Reference to                    and
                                                                                   Inadequate         Inadequate Price      the MOA         No DoD      Recording of
                                                                                  Sole-Source          Reasonableness     Between VA         COR            Past
                 DoD Activity                             Purchase                Justification        Determination       and AFSG          Letter     Performance        No QASP
         Army
        I) Army Office of Information
                                             I) CAC Support                        unknown                   •                N/A              •            N/R                •
              Assurance Compliance
        Air Force
        2) AFMOA Fort Detrick                2) Sterilizing Unit, plasma           competed               adequate                             •            N/A                •
                                             3) Human Patient Simulator            competed               adequate                             •            N/A                •
                                             4) AN/PRC 150 Tactical Radio
                                                                                   competed               adequate                             •           N/A                 •
                                             Systems
                                                                                                                                                                       I
                                             5) AN/PRC 117 Tactical Radio
                                             Systems                                   •                     •                                 •             •                 •
                                             6) War Reserve Maintenance                •                 adequate                             N/D            •                 •
        3) AFMOA Kelly AFB                   7) Mandicular/Craniafacial sets       adequate              adequate                              •           N/A                 •
                                             8) 840 Ventilators and Accessories    competed                  •                                 •           N/A                 •
                                             9) M I M Analyzer System              competed                  •                                 •           N/A                 •
                                             10) KCI VAC ATS                       adequate              adequate                              •           N/A                 •
..,.                                         II) KCI Freedom Wound VAC             adequate              adequate                              •           N/A                 •
-..J                                          12) Centralized Credentialing
        4) AFMOA Bolling AFB                                                       competed              adequate                          adequate         •                  •
                                              Support
                                              13) Spectrum Healthcare Medical
                                                                                   competed              adequate                          adequate         •              adequate
                                              Management
                                              14) Administrative Technician        competed              adequate                           adequate        •              inadequate
                                              15) EDS VTC Support                  competed              adequate                           adequate        •                  •
        5) 96"' MOSS, Eglin AFB               16) Sterling Medical-Allergist       unknown                   •                              adequate        •               adequate
                                              17) Family Health RN                 unknown                   •                              adequate        •               adequate
                                              18) OB Midwife Nurse                 competed              adequate                           adequate        •               adequate
                                              19) OB Nurse Practioner              competed              adequate                           adequate        •               adequate
                                             20) PACU/RNs                            N/R                   NIR                             inadequate       •               adequate
        6) AFMOA, Brooks City-Base           21) DMLSS Facility Management         competed              adequate                           adequate        •              inadequate
                                             22) HAMSN791-T07518
        7) AFMSA, Brooks City-Base                                                 competed              adequate                          adequate         •              inadequate   I
                                             (Edwards)
                                             23) HAMSN791-T06224
                                                                                  competed               adequate                          adequate                        inadequate   i
                                             (Andrews)                                                                                                      •                           I
                                        I    24) HAMSN791(J-06)-0103
                                                                                  competed               adequate                          adequate         •              inadequate
                                             (Offut)/(Nellis)
                                             25) Wireless and IT
                                                                                   adequate              adequate                          adequate         •              inadequate
                                             servicesN79I (J-07)-POO 15
                                             26) Facility Maintenance
                                                                                      •                     •                              adequate         •                  •        I
                                             VOO IOAT06039
       J) HQ ACC, Lanolev AFB               ].}) Facility Maintenance             competed                  •                              adequate         •              inadequate   I
          -

                                                                                                                                                                          No DoD
                                                                                                                                                                         Collection
                                                                                                                               I,   1\0 Reference to                        and
                                                                                       Inadequate           Inadequate Price            the MOA         No DoD          Recording of
                                                                                      Sole-Sou rce           Reasonableness           Between VA         COR                Past
                       DoD Activity                      Purchase                     J ustitica tion         Determination            and AFSG          Letter         Performa nce    No QASP
              9) 81 " Medical Group,           28) HAMSIV79 1(J-06)-01 0 I
                                                                                        competed                adequate                                adequate             •          inadequate
                     Keesler AFB                                                                                                                                                                      ,
                                               29) HAMSIV79I (J-07)-0503                                                                                            I
                                                                                        adequate                adequate                               inadequate   I        •              •
                                               (Keesler Bridge)
                                               30) HAMSIVOOIOAT002 (Keesler
                                                                                        competed                   •                                       •                 •              •
                                               6 months)
                                               31) Phlebotomist & Lab
                                                                                          N/R                     N/R                                      •                 •           adequate
                                               Technologist
                                               32) Admin Assistant Clerks                 N/R                    NIR                                       •                 •           adequate
                                               33) HVAC                                   N/R                    NIR                                       •               N/A              •
                                               34) Facility Maintenance Andrews   I
              10) 79'h Medical Logistics                                                competed                   •                       •           adequate              •              •
                                               (VOOIOAT07001)
              II) AETC, Randolph AFB           35) Syncsort Backup Software             adequate               adequate                  N/A           adequate            N/R              •
                                               36) Electronic Document
              12) SAF/FMBMS                                                            competed                    •                     N/A               •               N/A              •
                                               ManagementSystem                                         I
-+:>.
00            13) AFCA, Scott AFB              37) IT Service                               •                      •                     N/A           adequate            N/R          inadequate
              DoD Field Activity
              14) Defense Civilian Personnel   38) IT Services
                                                                                        unknown                    •                     N/A           inadequate          N/R              •
                   Management Service
                                               39) IT Services                          unknown                    •                     N/A           adequate            N/A              •
              15) TRICARE                      40) System Engineering                       •                      •                     N/A               •               N/R              •
                                                                                                                                                                                           23 No
              Total IS DoD Activities          40 Purchases                           5 Inadequate           IS Inadequate               I No            16 No            24 No
                                                                                                                                                                                       9 Inadequate




        Note: See the list of acronym definitions at the end of Appendix E.
Appendix D. Potential Antideficiency Act
Violations That Occurred in FY 2007 Using
Assisted Acquisitions

Office of the Secretary of the Air Force (Financial
 Management and Budget)

  Electronic Document Management System
  The Office of the Secretary of the Air Force (Financial Management and Budget) sent
  MIPR F1AF2B6243G001 for $252,561 using FY 2006 Air Force Operations and
  Maintenance funds to the VA on August 31, 2006. The VA accepted the funds on
  September 7, 2006, to purchase electronic document management system support
  services. FY 2006 Operations and Maintenance funds expired on September 30,
  2006. The VA issued the purchase order for $232,611 on October 23, 2006, using
  VA contract V797 (049A3G) P-065. The period of performance was 1 year from the
  date of award. Use of FY 2006 Operations and Maintenance funds to satisfy FY 2007
  requirements does not meet the intent of the bona fide needs rule.

Air Force Medical Operations Agency

  Plasma Sterilization System
  The Air Force Medical Operations Agency sent MIPR F1ATB27152G001 for
  $285,242 using FY 2007 Defense Health Program funds to the VA on June 6, 2007.
  The VA accepted the funds on July 6, 2007, to purchase two plasma sterilization
  systems. FY 2007 Defense Health Program funds expired on September 30, 2007.
  The VA issued the purchase order for $242,650 on September 24, 2007, using VA
  contract V797P3773K for the sterilization systems. The purchase order had a stated
  delivery date of October 31, 2007. Actual delivery occurred on November 7, 2007.
  Since delivery was in FY 2008, the use of FY 2007 Defense Health Program funds to
  satisfy the FY 2008 requirement does not meet the intent of the bona fide needs rule.


TRICARE Management Activity

  AHLTA System Support
  The TRICARE Management Activity sent MIPR DRAM65189 for $1,778,863 using
  FY 2006 Defense Health Program funds to the VA on September 22, 2006. The VA
  accepted the funds on September 26, 2006, to purchase Composite Health Care
  Systems and AHLTA system engineering and information assurance support. VA


                                         49
  issued the purchase order for $1,454,551 on September 30, 2006, using GSA contract
  GS-35F-4987H for the Composite Health Care Systems & AHLTA system support
  services. The period of performance was October 1 through November 15, 2006.
  Since performance was to begin in FY 2007, the use of FY 2006 Defense Health
  Program funds to satisfy the FY 2007 requirement does not meet the intent of the
  bona fide needs rule.

Air Education and Training Command

  Data Storage Protection Software and Equipment
  The Headquarters Air Education and Training Support, Office of the Surgeon General
  sent MIPR F3PF377227G001 for $1,371,653 using FY 2007 Defense Health Program
  funds to the VA on August 14, 2007. The VA accepted the funds on September 7,
  2007, to purchase data storage protection software and equipment. The VA issued
  the purchase order for $1,336,785 on September 30, 2007, using the National
  Aeronautics and Space Administration Solutions for Enterprise-Wide Procurement
  contract NNG07DA31B for the software and equipment purchase. Items on this
  contract are commercial. The contract stated the delivery date for the software and
  equipment was 7 days after contract award. Since delivery of the software and
  equipment was to occur during October 2007, use of FY 2007 Defense Health
  Program funds to satisfy FY 2008 requirements does not meet the intent of the bona
  fide needs rule.




                                        50
                                                                                       '10 Fair
                                         Inadequate               Inadequate            Noticel                                                                      »

                                         Acquisition   No Bona    Preparation        Opportunity   No Price         Inadequate       Inadequate     Inadequate   I   -C
                                         Planning       Fide       orMIPR I          to Schedule   Reduction       Sole-Source        Contract         Past          -0
                  Purchase                              Need      Req uisition       Contractors    Sought         J ustifica lion    O,'ersight   Performance       CD
      I) Dental X-Ray System                  •                        •                 •           N/D                •                              NA
                                                                                                                                                                     :::s
     2) Pharmacy Dispensing System                        •            •                 •           NA                 •                •             NA            c.
                                                                                                                                                                     _. 

     3) Pharmacy Automation                                                      I
                                                                                         •           NA                 •                •             NA            ><
     Equipment
                                              '.•         •            •
     4) CT Imaging System                     •           •                              •           NA                 •                •             NA            m
     5) Dental Chairs                         •           •                              •            •                 •                              NA            •
     6) Dental X-Ray Machine                  •                       •                  •           N/D                •                •             NA
     7) Dental Radiography Sensor                                                                                                                                    c_. 

                                              •          N/D          •                  •           N/D                •                •            NA
     System                                                                                                                                                          ~
     S) Pharmacy Automation                                                                                                                                          CD
                                              •           •           •                  •            •                 •                •            NA
     Equipment                                                                                                                                                       (")
     9) Imaging Guidance System                                                          •            •                 •              GNR            NA             ~-
                                              •           •           •                                        I
     ~ Piperaciliin Medication                •          N/D         N/D                 •           N/D               NID               •            NA
     II) Dermatological Laser System          •           •           •                  •           NID                •                •            NA             »

     12) Dental CT System                                                                            NA                                               NA             (")
VI
                                              •           •           •                  •                              •                •
     13) Pharmacy Dispensin o System          •           •           •                  •           NA                 •                •            NA             .Q
     14) Pharmacy Dispensing System           •           •           •                  •           NA                 •              GNR            NA              C
     15) Pharmacy Automation
                                                                                                     NA                                GNR            NA
                                                                                                                                                                     _. 

     Equipment                                •           •           •                  •                              •                                            tn
                                                                                                                                                                     _. 

     16) Robotic Medication                                                                                                                                          ~
                                              •           •           •                  •           NA                 •                •            NA             _. 

     Management System
     17) Phannacy Automation                                                                                                                                         o
                                              •           •           •                  •           NA                 •                             NA
     Equipment                                                                                                                                                       :::s
     IS) Pharmacy Dispensing System           •           •                              •           NA                 •                             NA             tn
     19) Intravenous Infusion Pumps           •           •                              .,                             •                              •
     20) Intravenous Infusion Pumps           •           •           •                  •                              •                              •             -

                                                                                                                                                                     tn
     21) Intravenous Infusion Pumps           •           •           •                  •                              •                              •             tn
     22) Intravenous Infusion Pumps           •           •           •                  •                              •                              •
     23) Intravenous Infusion Pumps
                                                                                                                                                                     C
                                              •           •           •                  •                              •                              •             CD
     -------­        -- - ­
                               Totals:    230f23       19 of 21    180f23             23 or23       30r8            22 or 22          II or20        50r5            tn
                               Appendices Abbreviations and Acronyms Defined
     Abbreviations
     GNR    Goods Not Received
     N/A    Not Applicable
     N/R    Not Reviewed
     N/D    Did not determine due to lack of documentation


     Acronyms
     ACC            Air Combat Command
     AETC           Air Education and Training Command
     AFCA           Air Force Communications Agency
     AFMOA          Air Force Medical Operations Agency
     AFMSA          Air Force Medical Support Agency
Vl
N    AN/PRC         ArmylNavy Portable Radio (used for two-way communications)
     CAC            Common Access Card
     CT             Computed Tomography
     DMLSS          Defense Medical Logistics Standard Support
     EDS            Electronic Data System
     HAMS           Hospital Aseptic Management Services
     HVAC           Heating, Ventilation, and Air Conditioning
     IT             Infonnation Technology
     OB             Obstetrics
     PACU/RN        Post Anesthesia Care Unit Registered Nurse
     SAF/FMBMS      Secretary of the Air Force Financial Management and Budget
     VAC ATS        Vacuum Assisted Closure Advanced Therapy System
     VTC            Video Teleconferencing
Appendix F. Potential Antideficiency Act
Violations That Occurred in FY 2007 Using
Direct Acquisitions
Defense Supply Center- Philadelphia
1. The Air Force Medical Operations Agency sent MIPR F1ATB27137G003, using
FY 2007 Defense Health Program funds, to DSCP on May 17, 2007, to purchase
pharmacy automation equipment. FY 2007 Defense Health Program funds expired on
September 30, 2007. DSCP issued the purchase order for $481,491 on August 16, 2007,
using contract V797P-4324A. The purchase order had a stated delivery date of 90 days
after delivery order, November 14, 2007. Use of FY 2007 Defense Health Program funds
to satisfy FY 2008 requirements does not meet the intent of the bona fide needs rule.

2. The Material Management Department sent requisition N6809462228001, using
FY 2006 Defense Health Program funds, to DSCP on August 14, 2006, to purchase
pharmacy automation equipment. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $157,629 on February 1, 2007,
using contract V797P-4313A. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

3. The National Naval Medical Center sent requisition N001686221W800, using
FY 2006 Defense Health Program funds, to DSCP on September 21, 2006, to purchase
dental imaging equipment. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $194,875 on July 1, 2007,
using contract V797P-3075M. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

4. The Naval School of Health Sciences sent requisitions N0621A6229HB04,
N0621A6229HB01, N0621A6229HB02, and N0621A6229HB03, using FY 2006
Defense Health Program funds, to DSCP on August 17, 2006, to purchase dental chairs.
FY 2006 Defense Health Program funds expired on September 30, 2006. DSCP issued
the purchase order for $262,849 on April 10, 2007, using contract V797P-3073M. Use of
FY 2006 Defense Health Program funds to satisfy FY 2007 requirements does not meet
the intent of the bona fide needs rule.

5. The U.S. Army Medical Department sent requisition W45CM161158200, using
FY 2006 Defense Health Program funds, to DSCP on May 2, 2006, to purchase
pharmacy automation equipment. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $336,173 on February 1, 2007,
using contract V797P-4313A. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.




                                         53
6. The Air Force Medical Operations Agency sent MIPR F1ATB26268G007, using
FY 2006 Defense Health Program funds, to DSCP on September 26, 2006, to purchase an
imaging guidance system. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $196,000 on April 12, 2007,
using contract V797P-4802A. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

7. The Air Force Medical Operations Agency sent MIPR F1ATB26271G004, using
FY 2006 Defense Health Program funds, to DSCP on September 28, 2006, to purchase a
dermatological laser system. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $159,965 on March 12, 2007,
using contract V797P-4499A. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

8. The Air Force Medical Operations Agency sent MIPR F1ATB26268G006, using
FY 2006 Defense Health Program funds, to DSCP on September 26, 2006, to purchase a
dental computed tomography system. FY 2006 Defense Health Program funds expired
on September 30, 2006. DSCP issued the purchase order for $185,134 on July 21, 2007,
using contract V797P-3086M. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

9. The Air Force Medical Operations Agency sent MIPR F1ATB26248G002, using
FY 2006 Defense Health Program funds, to DSCP on September 5, 2006, to purchase a
pharmacy dispensing system. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $242,742 on March 15, 2007,
using contract V797P-4324A. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

10. The Air Force Medical Operations Agency sent MIPR F1ATB26271G005, using
FY 2006 Defense Health Program funds, to DSCP on September 28, 2006, to purchase a
pharmacy dispensing system. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $185,978 on March 13, 2007,
using contract V797P-4324A. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

11. The Air Force Medical Operations Agency sent MIPR F1ATB26186G001, using
FY 2006 Defense Health Program funds, to DSCP on July 7, 2006, to purchase pharmacy
automation equipment. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $817,843 on February 9, 2007,
using contract V797P-3481K. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

12. The Martin Army Community Hospital sent MIPR W33BTY60698502, using
FY 2006 Defense Health Program funds, to DSCP on April 25, 2006, to purchase a
robotic medication management system. FY 2006 Defense Health Program funds
expired on September 30, 2006. DSCP issued the purchase order for $411,820 on



                                         54
February 28, 2007, using contract V797P-4796A. Use of FY 2006 Defense Health
Program funds to satisfy FY 2007 requirements does not meet the intent of the bona fide
needs rule.

13. The U.S. Army Medical Department Activity sent requisition W45CM161158200,
using FY 2006 Defense Health Program funds, to DSCP on May 2, 2006, to purchase
pharmacy automation equipment. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $187,654 on February 28,
2007, using contract V797P-3458K. Use of FY 2006 Defense Health Program funds to
satisfy FY 2007 requirements does not meet the intent of the bona fide needs rule.

14. The Naval Medical Logistics Command sent requisitions N626456151E021 and
N626456151E022, using FY 2006 Defense Health Program funds, to DSCP to purchase a
pharmacy dispensing system. FY 2006 Defense Health Program funds expired on
September 30, 2006. DSCP issued the purchase order for $115,405 on March 7, 2007,
using contract V797P-4257A. Use of FY 2006 Defense Health Program funds to satisfy
FY 2007 requirements does not meet the intent of the bona fide needs rule.

15. The Naval Medical Logistics Command sent requisitions N626457200E090,
N626457204E091, N626457204E092, N626457204E093, N626457204E094,
N626457204E095, and N626457269E173, using FY 2007 Defense Health Program
funds, to DSCP on July 23, 2007, to purchase intravenous infusion pumps and
accessories. FY 2007 Defense Health Program funds expired on September 30, 2007.
DSCP issued the purchase order for $2,392,176 on September 26, 2007, using contract
V797P-4965A. The purchase order had a stated delivery date of October 31, 2007 for the
pumps, while the accessories delivery dates were from October 8, 2007 through
November 7, 2007. The pumps were delivered on November 6, 2007 and accessories
deliveries were completed on November 14, 2007. Use of FY 2007 Defense Health
Program funds to satisfy FY 2008 requirements does not meet the intent of the bona fide
needs rule.

16. The Keller Army Community Hospital sent requisitions W16SLD72067701 and
W16SLD72067702, using FY 2007 Defense Health Program funds, to DSCP on July 25,
2007, to purchase intravenous infusion pumps and accessories. FY 2007 Defense Health
Program funds expired on September 30, 2007. DSCP issued the purchase order for
$104,800 on October 3, 2007, using contract V797P-4965A. Use of FY 2007 Defense
Health Program funds to satisfy FY 2008 requirements does not meet the intent of the
bona fide needs rule.

17. The Walter Reed Army Medical Center sent MIPR MIPR7KWCD04091, using
FY 2007 Defense Health Program funds, to DSCP on July 31, 2007, to purchase
intravenous infusion pumps and accessories. FY 2007 Defense Health Program funds
expired on September 30, 2007. DSCP issued the purchase order for $2,542,117 on
October 3, 2007, using contract V797P-4965A. Use of FY 2007 Defense Health
Program funds to satisfy FY 2008 requirements does not meet the intent of the bona fide
needs rule.



                                          55
18. The U.S. Army Medical Department Activity, Fort Belvoir, sent MIPR
MIPR7DLA00051, using FY 2007 Defense Health Program funds, to DSCP on
August 17, 2007, to purchase intravenous infusion pumps and accessories. FY 2007
Defense Health Program funds expired on September 30, 2007. DSCP issued the
purchase order for $237,875 on October 3, 2007, using contract V797P-4965A. Use of
FY 2007 Defense Health Program funds to satisfy FY 2008 requirements does not meet
the intent of the bona fide needs rule.

19. The 79th Medical Wing sent MIPR V4425-0154, using FY 2007 Defense Health
Program funds, to DSCP on September 26, 2007, to purchase intravenous infusion pumps
and accessories. FY 2007 Defense Health Program funds expired on September 30,
2007. DSCP issued the purchase order for $367,072 on October 3, 2007, using contract
V797P-4965A. Use of FY 2007 Defense Health Program funds to satisfy FY 2008
requirements does not meet the intent of the bona fide needs rule.




                                        56
Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments
                                                              Final Report
                                                               Reference




                    Click to add JPEG file

                                                            Attached guidance
                                                            discussed on page
                                                            19.




                                   57
Office of the Under Secretary of Defense(Comptroller)/DoD
Chief Financial Officer Comments




                    Click to add JPEG file




                                   58
                           Final Report
                            Reference




Click to add JPEG file




                         Revised
                         Recommendation
                         Pg. 33




               59
Click to add JPEG file




               60
Assistant Secretary of Defense for Health Affairs
Comments
                                                      Final Report
                                                       Reference




                    Click to add JPEG file




                                                    Attachments Not
                                                    Included




                                   61
Defense Logistics Agency Comments




                  Click to add JPEG file




                                 62
Click to add JPEG file




               63
Click to add JPEG file




               64
Click to add JPEG file




               65
Click to add JPEG file




               66
Click to add JPEG file




               67
